<html>
<title> - ASSESSING STATE AND LOCAL REGULATIONS TO REDUCE DENTAL MERCURY EMISSIONS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
    ASSESSING STATE AND LOCAL REGULATIONS TO REDUCE DENTAL MERCURY 
                               EMISSIONS

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON DOMESTIC POLICY

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              JULY 8, 2008

                               __________

                           Serial No. 110-167

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                     http://www.oversight.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

49-972 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 










              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
EDOLPHUS TOWNS, New York             TOM DAVIS, Virginia
PAUL E. KANJORSKI, Pennsylvania      DAN BURTON, Indiana
CAROLYN B. MALONEY, New York         CHRISTOPHER SHAYS, Connecticut
ELIJAH E. CUMMINGS, Maryland         JOHN M. McHUGH, New York
DENNIS J. KUCINICH, Ohio             JOHN L. MICA, Florida
DANNY K. DAVIS, Illinois             MARK E. SOUDER, Indiana
JOHN F. TIERNEY, Massachusetts       TODD RUSSELL PLATTS, Pennsylvania
WM. LACY CLAY, Missouri              CHRIS CANNON, Utah
DIANE E. WATSON, California          JOHN J. DUNCAN, Jr., Tennessee
STEPHEN F. LYNCH, Massachusetts      MICHAEL R. TURNER, Ohio
BRIAN HIGGINS, New York              DARRELL E. ISSA, California
JOHN A. YARMUTH, Kentucky            KENNY MARCHANT, Texas
BRUCE L. BRALEY, Iowa                LYNN A. WESTMORELAND, Georgia
ELEANOR HOLMES NORTON, District of   PATRICK T. McHENRY, North Carolina
    Columbia                         VIRGINIA FOXX, North Carolina
BETTY McCOLLUM, Minnesota            BRIAN P. BILBRAY, California
JIM COOPER, Tennessee                BILL SALI, Idaho
CHRIS VAN HOLLEN, Maryland           JIM JORDAN, Ohio
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont
------ ------

                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
               Lawrence Halloran, Minority Staff Director

                    Subcommittee on Domestic Policy

                   DENNIS J. KUCINICH, Ohio, Chairman
TOM LANTOS, California               DARRELL E. ISSA, California
ELIJAH E. CUMMINGS, Maryland         DAN BURTON, Indiana
DIANE E. WATSON, California          CHRISTOPHER SHAYS, Connecticut
CHRISTOPHER S. MURPHY, Connecticut   JOHN L. MICA, Florida
DANNY K. DAVIS, Illinois             MARK E. SOUDER, Indiana
JOHN F. TIERNEY, Massachusetts       CHRIS CANNON, Utah
BRIAN HIGGINS, New York              BRIAN P. BILBRAY, California
BRUCE L. BRALEY, Iowa
                    Jaron R. Bourke, Staff Director










                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 8, 2008.....................................     1
Statement of:
    Bender, Michael, director, Mercury Policy Project; Richard D. 
      Fischer, former president, International Academy of Oral 
      Medicine and Toxicology; Curt McCormick, former 
      Administrator, Environmental Protection Agency Region 8; 
      and William Walsh, counsel, American Dental Association....    12
        Bender, Michael..........................................    12
        Fischer, Richard D.......................................    41
        McCormick, Curt..........................................    49
        Walsh, William...........................................    58
    Magnuson, Patricia, industrial waste investigator, King 
      County, Seattle, WA; Ann Farrell, director, Engineering 
      Department, Central Contra Costa County Sanitary District; 
      Dr. C. Mark Smith, deputy director and co-chair, 
      Massachusetts Department of EPA, New England Governors and 
      Eastern Canadian Premiers Task Force; and Owen Boyd, CEO, 
      Solmetex...................................................    97
        Boyd, Owen...............................................   152
        Farrell, Ann.............................................   115
        Magnuson, Patricia.......................................    97
        Smith, Dr. C. Mark.......................................   133
Letters, statements, etc., submitted for the record by:
    Bender, Michael, director, Mercury Policy Project, prepared 
      statement of...............................................    18
    Boyd, Owen, CEO, Solmetex, prepared statement of.............   155
    Farrell, Ann, director, Engineering Department, Central 
      Contra Costa County Sanitary District, prepared statement 
      of.........................................................   118
    Fischer, Richard D., former president, International Academy 
      of Oral Medicine and Toxicology, prepared statement of.....    43
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio, prepared statement of...................     4
    Magnuson, Patricia, industrial waste investigator, King 
      County, Seattle, WA, prepared statement of.................   100
    McCormick, Curt, former Administrator, Environmental 
      Protection Agency Region 8, prepared statement of..........    52
    Smith, Dr. C. Mark, deputy director and co-chair, 
      Massachusetts Department of EPA, New England Governors and 
      Eastern Canadian Premiers Task Force.......................   136
    Walsh, William, counsel, American Dental Association, 
      prepared statement of......................................    60
    Watson, Hon. Diane E., a Representative in Congress from the 
      State of California, letter dated December 17, 2004........    77


    ASSESSING STATE AND LOCAL REGULATIONS TO REDUCE DENTAL MERCURY 
                               EMISSIONS

                              ----------                              


                         TUESDAY, JULY 8, 2008

                  House of Representatives,
                   Subcommittee on Domestic Policy,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:35 p.m., in 
room 2154, Rayburn House Office Building, Hon. Dennis J. 
Kucinich (chairman of the subcommittee) presiding.
    Present: Representatives Kucinich, Watson, and Burton.
    Staff present: Jaron R. Bourke, staff director; Noura 
Erakat, counsel; Jean Gosa, clerk; Leneal Scott, information 
systems manager; and Jill Schmalz, minority professional staff 
member.
    Mr. Kucinich. Good afternoon to our witnesses and to all 
those in attendance. I am Congressman Dennis Kucinich, chairman 
of the Domestic Policy Subcommittee of the Oversight and 
Government Reform Committee.
    Our hearing today is going to be on assessing State and 
local regulations to reduce dental mercury emissions.
    I am pleased to be joined today by the distinguished 
Congressman from the State of Indiana, Representative Dan 
Burton, who I had the privilege of serving with in many 
different capacities over the last 12 years.
    Congressman Burton, thank you for joining us, sitting in as 
the ranking member today for Congressman Issa.
    This hearing today continues an examination that this 
subcommittee began last November into the detrimental impact of 
mercury on the environment. In particular, we are taking a 
closer look at mercury released from the dental industry and 
how State and local governments have worked to reduce those 
emissions.
    Elemental mercury and most of its compounds are extremely 
toxic substances that can cause chronic and acute poisoning in 
human beings who come into contact with them. Young children 
and unborn fetuses are particularly susceptible to mercury 
poisoning. Today, improper disposal of mercury into wastewater 
by industries and persons who use it has caused dangerously 
high contamination levels in many of the country's water 
bodies.
    The dental industry contributes substantially to the amount 
of mercury that ends up in wastewater and eventually in fresh 
water. In places where the disposal of dental amalgam is not 
subject to regulation, amalgam is frequently discarded by 
simply washing it down the drain.
    Last November, the subcommittee held its first hearing on 
this matter, where it heard testimony from the EPA, as well as 
the Food and Drug Administration. In the aftermath of the 
hearing, the FDA set a deadline to issue a final regulation on 
the reclassification of dental amalgam and its components, 
which would increase FDA oversight of dental amalgam. We are 
pleased with the FDA's decision to issue this proposed 
rulemaking.
    During our first hearing, we learned that dental offices 
constitute the largest source of mercury in wastewater 
influent. Once in the wastewater, mercury contaminates the 
environment in several ways. Most of the mercury entering the 
wastewater stream concentrates in the sewage sludge, 60 percent 
of which is spread over land as fertilizer; 20 percent is 
incinerated, resulting in the atmospheric release of mercury; 
and 15 percent is land-filled.
    The mercury that does not concentrate in sludge is 
discharged to downstream surface waters along with the treated 
effluent, namely into lakes, oceans, streams and land. We have 
also learned that a number of States and municipalities have 
made attempts at preventing the release of dental mercury from 
dental offices.
    Subsequently, the subcommittee took a closer look at State 
and local efforts aimed at reducing dental mercury emissions. 
The subcommittee surveyed nine States and eight local 
governments that have attempted to do so and found that when 
States evaluated the cost and benefits of choosing how to 
prevent environmental emissions of mercury, they all found that 
the most economical means for doing so was to prevent the 
dental mercury from entering their wastewater, as opposed to 
removing mercury from the wastewater.
    The technology used to capture mercury in the dentists' 
offices before it enters the wastewater stream is the mercury 
amalgam separator. Our survey revealed that to prevent dental 
mercury from entering municipal wastewaters, State and local 
governments have either encouraged voluntary use or mandated 
the use of separators.
    Our findings indicate that successful voluntary programs 
were incentivized programs that offered less cumbersome 
compliance requirements and were underpinned with the threat of 
a mandatory program. Moreover, most of the State and local 
governments that we surveyed initiated a voluntary program 
before enacting provisions in the form of a regulation, 
ordinance or statue mandating the installation of separators 
and a recycling program. Only after the failure of their 
voluntary programs to achieve their desired compliance goals 
did these governments switch to a mandatory program.
    Today we are going to hear from several of those States and 
local government representatives about how they grappled with 
these challenges, what were their lessons learned and how their 
regulatory experience can help States and local governments 
seeking to reduce dental mercury discharges to their 
wastewater.
    We will also hear from the American Dental Association. The 
ADA constitutes one of the most significant stakeholders in the 
effort to reduce dental mercury emissions. As we will hear 
today, among the most valuable lessons learned in the effort to 
achieve compliance is the importance of the cooperation and 
leadership of local and State dental societies.
    The ADA has already made significant strides in leading the 
effort to reduce dental mercury emissions. Most recently, it 
amended its best management practices to reflect its 
endorsement of amalgam separators as an effective tool to 
reducing mercury contamination from the dental industry. The 
ADA writes that ``the use of separators will allow greater 
recycling and reduce the amount of amalgam which contains 
mercury entering wastewater treatment plants.''
    Some of the questions we hope to address in today's 
hearings are: First, what is the impact of dental mercury on 
the environment? Second, what is the efficacy of amalgam 
separator units? Third, what is the cost-benefit analysis of 
amalgam separators made by State and local governments? And, 
fourth, what are the considerations to make when deciding 
between a voluntary and a mandatory dental mercury reduction 
program?
    The subcommittee looks forward to hearing the testimony of 
witnesses today, and we will continue our investigation of how 
State and local governments can effectively reduce dental 
mercury emissions.
    At this time I would like to introduce the gentleman from 
Indiana, Congressman Burton, for his opening statement thank, 
Mr. Burton.
    [The prepared statement of Hon. Dennis J. Kucinich 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Burton. Thank you, Mr. Kucinich.
    Dr. Fischer, it's good seeing you again. Haven't seen you 
for a while.
    I will tell you a little story. This weekend I had a cap 
come off of one of my teeth, and I had to call my dentist for 
an emergency so he could put that cap back on. But when I got 
there, I asked him, I said, ``What kind of a filling do I have 
in that tooth that was under that cap?'' He says, ``Well, it's 
an amalgam.'' I said, ``Well, that's partially mercury, isn't 
it?'' He says, ``Yeah, but it's inert, and it can't cause you 
any problem.''
    I just want you to know that it split, and a lot of that 
came into little bitty chunks and it got in my mouth, and I had 
to rinse it out. I was thinking, as I was rinsing it out, I 
wonder how much of this I am going to swallow and what kind of 
an impact it might have on me later in life.
    And I had to have him go ahead and put the cap on it, so it 
is still there. So, Dr. Fischer, I may be coming to you to have 
to get that out of there, because I had to have my tooth fixed 
over the weekend.
    But that's an example of--and he is a very good dentist; 
don't misunderstand. He is trying to do what he thinks is 
right, and he gets his direction from the ADA, who doesn't like 
me very much. You guys worked hard to beat me in the primary. I 
just want you to know you didn't win.
    But, anyhow, the thing about mercury is it is toxic, and it 
shouldn't be in our drinking water, it shouldn't be in our 
teeth, it shouldn't be in our vaccines, it shouldn't be in 
anything that goes into the human body. There's just no 
question, it shouldn't be in anything that goes into the human 
body.
    And even the FDA--I guess it was the FDA--the U.S. Food and 
Drug Administration just recently said they no longer ignored 
the science after dodging its duty to classify mercury fillings 
for decades. The U.S. Food and Drug Administration recently 
settled a lawsuit with several consumer groups promising to 
complete its end of the settlement within a year. As part of 
the settlement, the FDA has even publicly withdrawn its claims 
that amalgam is safe for all. And now it warns, ``Dental 
amalgams contain mercury, which may have neurotoxic effects on 
the nervous systems of developing children and fetuses.'' Well, 
what about the person who has it in their mouth?
    You know, we had hearings on this for 2 years, Mr. 
Chairman. When I was chairman of the Government Reform 
Committee, my grandson became autistic. And I started looking 
into the mercury that was going into the human body, and I 
found that the vaccinations that children were getting 
contained 50 percent ethyl mercury and what was called the 
thimerosal preservative.
    And it used to be kids would get, you know, two or three 
vaccinations and then go to school. When I was a kid, if you 
had measles, it was a quarantine, or chicken pox or anything. 
Today, they give you vaccinations for all of that. And, as a 
result, children get as many as 28 to 30 vaccinations before 
they start to school.
    And, as a result, we have gone from one in 10,000 children 
that are autistic to one in 150. It is an absolute epidemic in 
America. And those kids are going to grow up, and they are 
going to get older, live to maybe 70 or 75, and be a burden not 
only to their families but on society and the taxpayers, 
because they are going to need help.
    And we still have mercury in adult vaccinations, and we 
have been able to get it out of almost all of the children's 
vaccinations except three or four. But a lot more needs to be 
done, and that's why I congratulate you on having this hearing.
    Representative Watson, your colleague on the Democrat side, 
who unfortunately couldn't be here today, she worked on this 
very hard in California. And she was able to get legislation 
passed out there that dealt with the mercury in dentistry, so 
that California is way ahead of the Federal Government and the 
ADA on this issue.
    I understand that other substances that they have put into 
our teeth may have some side effects. I have heard the ADA 
before, when we have had these hearings before, and there are 
some things that people should be concerned about. But mercury 
is the most toxic substance aside from radioactive material in 
the world. If you spill it on this floor, they are going to 
evacuate the building. They did that in high school in a 
science class here in Washington, DC. They spilled some on 
floor, they cleared the room, they evacuated the school, and 
they took the kids who had the mercury spilled on the floor 
near them and burned their clothes and had them watched by 
doctors for a long period of time.
    I am anxious to hear from our witnesses today. I have heard 
most of you before, and I am sure I am going to hear pretty 
much the same kind of testimony I have heard before.
    But I really do appreciate Dennis Kucinich, the chairman of 
this committee, who ran unsuccessfully for President but 
nevertheless he has a national following now. And even though 
Dennis is in the other party, him holding a hearing on this, I 
think, will bring far more attention on the subject. And I 
really appreciate him holding the hearing.
    Mercury should not be ingested in the human body in any 
way.
    One more thing, in Newport News, Virginia, when we were 
holding these hearings, the dentist down there, when they did 
the dental work on the naval personnel, they evidently were 
letting a lot of the mercury get into the wastewater system. 
And so the wastewater treatment system down there, the people 
that were head of the Newport News, Virginia, went to the naval 
leaders at Newport News and said, those all have to be put in 
containers, they can't allow any of the amalgams to leach into 
the water system because it was getting into the recycling 
system and it was getting into the water and causing problems. 
And so they started making sure it was put into lead-covered 
containers so it couldn't get into the system down there.
    That tells you pretty clearly that the residual impact of 
mercury fillings, even if you could keep them inert and 
wouldn't hurt you in your mouth, certainly hurt when they get 
into the ecological system, the water systems. And if you burn 
them in an incinerator, they get into the air. And so mercury 
should be not allowed to be put into amalgams or into the human 
body in any way.
    I am sorry if I droned on a little bit too long, Mr. 
Chairman, but when you have a grandson----
    Mr. Kucinich. The gentleman is entitled to take whatever 
time he thinks is necessary.
    Mr. Burton. Well, thank you.
    But when you have a child who is a normal child, and he is 
your grandson, and he gets nine shots in 1 day, seven of which 
have mercury in it, and he becomes autistic within just a short 
period of time, and you have hearings on it for 2 or 3 years, 
and you find out from leading scientists and doctors from all 
over the world that the mercury in the vaccinations was a 
contributing cause, they believe--and there have been studies 
that show it does--that it's a contributing factor to autism, 
mercury in the amalgams.
    We had scientists from all over the country and the world 
come in and talk about the leaching effect of the vapors from 
hot and cold water getting into the mouth that could cause 
neurological problems from the mercury amalgams that are in 
people's teeth.
    And so this is a very big issue. It's one that is not 
focused on very often. And I really appreciate, Mr. Chairman, 
you taking the lead on this today. And I want you to know that, 
as long as you do this and as long as I am in Congress, I will 
do everything I can to get mercury out of everything that goes 
into the human body.
    Thank you, Mr. Chairman.
    Mr. Kucinich. I want to thank the gentleman for his 
passionate opening statement and also to indicate to you that 
this subcommittee is going to have an ongoing interest in this.
    The gentleman from Indiana and I have had other 
conversations about exploring the research and the causative 
effects of autism.
    I want to thank you very much, Mr. Burton, for the heart 
that you put into this. Thank you.
    Mr. Burton. Thank you, Mr. Chairman.
    Mr. Kucinich. Without objection, Members and witnesses may 
have 5 legislative days to submit a written statement or 
extraneous materials for the record.
    Since there is no other Member seeking recognition, we are 
going to go to the witnesses' testimony. I want to begin by 
introducing our first panel.
    Mr. Michael Bender is the director and cofounder of the 
Mercury Policy Project. Over the past 12 years, Mr. Bender has 
worked extensively on reducing mercury uses, reduce trade and 
exposure at the State, national and international levels. He 
serves as cochair of the State of Vermont Advisory Committee on 
Mercury Pollution, where he has represented the Abenaki, a 
local indigenous tribe, since 1998.
    Dr. Rich Fischer is the former president of the 
International Academy of Oral Medicine and Toxicology. He has 
published scientific papers internationally, and in 1998 he 
authored a chapter in the British dental textbook entitled, 
``Complementary Therapies in Dental Practice.'' Dr. Fischer is 
also a member of several professional organizations, including 
the Academy of General Dentistry, the American Academy of 
Biological Dentistry, and the National Academy of Research 
Biochemists.
    Mr. Curt McCormick is the former administrator of the 
Environmental Protection Agency's Clean Water Act Industrial 
Pretreatment Program in Region 8. He worked for the EPA as an 
environmental scientist from 1987 to 2007, during which time he 
conducted hundreds of inspections of local government 
pretreatment programs and industrial facilities. Mr. McCormick 
is currently the owner of CWA Consulting Services and a board 
member for the Consortium for Research and Education on 
Emerging Contaminates.
    Mr. William Walsh--welcome--is legal counsel for the 
American Dental Association. He is of counsel in the Washington 
office of Pepper Hamilton LLP, where he heads the office's 
environmental practice group. He is also a member of the firm's 
sustainability and climate change team. His experience 
encompasses all major Federal environmental statutes and many 
State and local environmental laws, as well.
    I want to welcome all of our witnesses and thank you for 
appearing before the subcommittee today.
    It's the policy of the Committee on Oversight and 
Government Reform to swear in all the witnesses before they 
testify. I would ask that all the witnesses please rise and 
raise your right hands.
    [Witnesses sworn.]
    Mr. Kucinich. Let the record reflect that the witnesses 
answered in the affirmative.
    I will ask that each of the witnesses now give a brief 
summary of the testimony. Please keep this summary under 5 
minutes in duration. And I want you to keep in mind that your 
presentation is very important. We want to be able to have it 
on the record, and we will, because your written statement is 
going to be included in the hearing record. So if you can 
present for 5 minutes, everything else in the record.
    Let's start with Mr. Bender. You are our first witness. 
Please proceed.

STATEMENTS OF MICHAEL BENDER, DIRECTOR, MERCURY POLICY PROJECT; 
RICHARD D. FISCHER, FORMER PRESIDENT, INTERNATIONAL ACADEMY OF 
     ORAL MEDICINE AND TOXICOLOGY; CURT MCCORMICK, FORMER 
 ADMINISTRATOR, ENVIRONMENTAL PROTECTION AGENCY REGION 8; AND 
      WILLIAM WALSH, COUNSEL, AMERICAN DENTAL ASSOCIATION

                  STATEMENT OF MICHAEL BENDER

    Mr. Bender. Thank you, Mr. Chairman, members of the 
committee. My name is Michael Bender.
    Mr. Kucinich. You know what? I am sorry. Before we begin, I 
want to ask if--Congresswoman Watson just entered the room, and 
she has done so much on this.
    Did you want an opening statement, Congresswoman?
    Ms. Watson. Yes.
    Mr. Kucinich. OK. The Chair is going to use his prerogative 
to go to Congresswoman Watson, who has done a lot of work on 
this issue in the State of California, as Mr. Burton noted.
    And so, Ms. Watson, when you are ready, you may proceed. 
Just take your time. Thank you.
    And then we will return to you, Mr. Bender.
    Ms. Watson. Mr. Chairman, thank you so much for your 
leadership and your hard work on this issue and for holding 
this hearing.
    And I want to thank all of the witnesses for being here 
today.
    Mercury is a toxin. And we all are concerned about the 
welfare of the patients, but I am also worried about the long-
term effects of exposure to mercury to dentists and to the 
staff. For many years, there has been a research study on this 
very topic, and it was discovered that all dentists and staff 
who either replace or remove mercury fillings have extremely 
high levels of mercury in their systems.
    Some of the dental offices do not insert mercury fillings; 
they only remove them. Therefore, they are breathing in the 
mercury vapors and dust, and a regular mask does not help. One 
needs to wear a respirator. And this toxic material enters 
their systems via the respiratory tract. Absorption through the 
skin is another mode of transport.
    Dentists and staff, when compared to the general 
population, have a large mercury content difference. And it is 
not because they eat a lot of fish. Forget about the aesthetic 
component; the need of the dentists and staff, the health 
aspect, should be also a major concern.
    It's amazing to me that the EPA has not gotten involved 
with this. The long-term danger of mercury inhalation is as 
detrimental as dental mercury fillings in one's mouth. It makes 
you think we might be hiding something, doesn't it?
    And allow me to ask this question: Why is it that dentists 
have the highest suicide rate among any other health 
professional?
    Did you know that one of the side effects of mercury 
toxicity is depression and suicidal tendencies, known years ago 
as the Mad Hatter's Disease?
    I, myself, Mr. Chairman--and I am so pleased to see 
Congressman Burton here. We have been on this issue for years 
together, and I appreciate your interest and your focus and 
your being here. Look at the vacant seats.
    I, myself, did not know I was being poisoned for decades. I 
got my mercury fillings when I was 9 years old. And I noticed 
that I had these allergies to everything, that I was getting 
headaches, I was getting splotches in my skin. My skin was 
much, much darker.
    And so a group of researchers came into my office. They had 
been doing research in Europe. And they said, you know, have 
you ever been tested for mercury poison or vapors? They brought 
in the tester. It's a metal tube that goes down. And mine hit 
almost off the charts.
    I had to go to Mexico. I asked my own dentist about it, and 
he stuck something in my mouth and wouldn't even discuss it. 
And I have been going to him for 30 years.
    I went down to Mexico, and the dentist down there said he 
had to go to Mexico because he was to do 40 mercury fillings, 
amalgam fillings, he refused, and he couldn't pass his boards. 
So he went to the University of Mexico, passed his boards, 
lives in California but goes down to work there. So he 
explained to me. It took 6 weeks. I went from Washington, down 
to Mexico, to LA. That was my route, until the work was done.
    I looked like a different person. I went to the 
dermatologist. He said, I am going to pull out the poison 
through your skin. So, along with getting the mercury fillings 
out, they were going, the fumes were going up through my T-
zone. I was having trouble remembering names. I said, what's 
wrong with me? I was being poisoned.
    I called in the National Dental Association, and they told 
me that black people didn't like to go the dentist, and so 
certainly they are going to continue to use amalgam fillings 
because they were cheaper. And I tried to explain to them what 
I knew scientifically; did no good. They were looking at cost. 
And I was just amazed. I said, you are going to put young 
people under risk? And they didn't seem to care.
    So I said, you take my bill. You take it home with you, 
look at it, and then you tell me how I can amend that bill to 
suit your needs. I got the same letter back from them that they 
sent in the beginning.
    So I see that profit for dentists--you know, don't make a 
wave. People won't know. We are dulling down our children's 
brains. And I think pregnant women, you know, whatever goes in 
here seeps through the placenta and has an effect on that 
fetus.
    And I think it's high time that any professional start 
looking at this. And I am surprised. The Environmental 
Protection Agency wouldn't really want to look at it seriously 
without our prompting?
    Senator--Congressman Burton--I just promoted you to 
Senator.
    And we were told in southern California, do not eat the 
tuna along the coast; it's infested with mercury. Do not eat 
it. Why? Because, as you know, the waste from dental offices go 
into the sewage plant and then out into the ocean.
    And so I am really, really concerned. We need to wake up to 
this new threat.
    And, again, Mr. Chairman, I wish to thank you for your 
leadership, your hard work. Mercury is an environmental 
disaster. It's the number-one toxic substance in terms of the 
WHO. And dentists have alternatives. They might be a little 
more expensive, but why would you want to take the risk and put 
a toxic substance in, particularly, a young person's mouth? 
Because you say it's well-sealed. Well, I haven't seen a child 
who hasn't fallen, cracked a tooth, or tooth is pulled, or 
whatever. And that mercury goes right up into your T-zone.
    So, Mr. Chairman, I know that we are going to be 
enlightened today, and I want to thank you. And I want to thank 
my partner over there, Representative Burton, for his interest, 
his focus, in setting this as a priority.
    Thank you very much. I look forward to hearing from the 
witnesses.
    Mr. Kucinich. I thank the gentlelady for her comments.
    Let's proceed with Mr. Bender. Thank you.
    Mr. Bender. Thank you, Mr. Chairman, members of the 
committee. My name is Michael Bender. I am the director of the 
Mercury Policy Project. We work locally, nationally and 
globally to eliminate mercury releases and the use of mercury 
and exposures to mercury.
    Next slide, please.
    In my brief presentation today, I am just going to recap 
some of the information that we have heard from the last 
hearing.
    First of all, that there's over 1,000 tons of mercury tooth 
fillings in Americans today that, when released, will pollute 
our environment. And mercury use is continuing.
    Second, nine States require dentists to have amalgam 
separators to reduce mercury into wastewater. That's one good 
step forward, and we will talk about others.
    Third, that the voluntary efforts are not effective at 
convincing dentists to install separators. They need some kind 
of an incentive.
    Fourthly, that the ADA and the State associations are 
reportedly blocking State and local amalgam separator 
initiatives, even though they voluntarily say they promote 
them.
    And then finally, we will summarize the discussion that the 
amalgam separators is the most cost-effective at controlling 
dental mercury pollution.
    We will also want to draw the committee's attention to a 
report we provided to the committee where we do a cost 
analysis. Representative Watson mentioned the higher cost of 
the amalgam separator. When you factor in the externalities, 
the cost of keeping mercury out of wastewater and keeping 
mercury out of the airstream from cremations and the costs of 
the amalgams aren't cheaper. In fact, they are comparable, or 
the composites are actually more cost-effective.
    So, next slide, please.
    This is a pie chart from the U.S. EPA where they have 
alerted us that there's over 1,000 tons of mercury walking 
around in Americans' mouths. It's the largest single current 
use of mercury in the United States today.
    Next slide, please.
    That dental mercury, on average, accounts for over 50 
percent of the load of mercury into wastewater. And we see some 
examples there. And, again, this was background.
    I would like to move to the next slide, which is some new 
information that we just got from the Northeast Waste 
Management Officials' Association, the interstate mercury 
education and reduction clearinghouse. They just released the 
2004 data on mercury uses from the amalgam manufacturers.
    Unfortunately, we are saddened to hear that the U.S. 
dentists are still using 30 tons of mercury annually in 2004, 
just as they were in 2001. This is significant because, 
contrary to what we have heard from the dental sector, their 
mercury pollution will continue unabated without controls.
    Next slide, please.
    Although you can't see this on this screen very well, you 
can see the actual numbers and that the dental mercury use is 
about 25 percent of all the use in the United States today. And 
it indicates the numbers from 2001 to 2004.
    Mr. Chair, these are actual numbers that were reported by 
State law from the amalgam manufacturers to the NEWMOA group. 
And so, unfortunately, we keep hearing from the dentists that 
they are reducing the use of mercury; we are not seeing it in 
the hard numbers. We have heard it anecdotally, and 
unfortunately we are not seeing it.
    Next slide, please.
    As I indicated earlier, there are State mandates for 
amalgam separators. Nine States require mandatory separator 
installation. Why? Because the voluntary programs aren't 
effective at convincing dentists to install separators. And 
there are numerous examples of this, and we will hear more of 
those today.
    Data from the Boston area showed a 48 percent reduction in 
mercury concentration and sludge as amalgam separator use 
increased from less than 20 percent to over 80 percent due to 
mandates.
    Next slide, please.
    The ADA unfortunately and apparently is continuing--even 
though they are now supporting these amalgam separator 
initiatives as a voluntary BMP, what we are hearing from their 
own news reports is that they are reportedly training their 
trainers to support these BMPs, best management practices, and, 
along the way, use this argument as a way to oppose the amalgam 
separator initiatives.
    The ADA and the State dental associations appear to have 
blocked amalgam separator initiatives in California, Wyoming, 
Michigan, Ohio, Montana and likely elsewhere, and they have 
slowed the requirements for installation in Oregon. They are 
also blocking local separator initiatives as well, as we know 
from their recent work in the city of Philadelphia.
    Next slide, please.
    In summary--I am sorry, I am jumping ahead of myself. I 
just wanted to emphasize Chairman Kucinich's statement about 
amalgam separators being very cost-effective. We had 
consultants do an analysis over a certain period of time, using 
2005 numbers. The cost per filling for amalgam separators is an 
add-on cost of about $2 a filling. As I indicated earlier, we 
also did an economic analysis of the cost of putting the 
controls on the cremation. That will be $18 more a filling. So 
that's where the numbers add up, that, in fact, the amalgam is 
not cheaper.
    Then, finally, I would like to conclude with some 
information that's in our longer-term and our larger report 
that's available for the record, and it sort of reiterates a 
little bit of what Representative Watson was saying.
    In summary, the encapsulated dental amalgam is shipped from 
manufacturers to a dentist's office with a skull and crossbones 
affixed next to the word, ``Poison, Contains Metallic 
Mercury,'' MSDS 2007, from Dentsply. Amalgam manufacturers--
Kerr, Vivadent and Dentsply, among others--advise dentists 
against placing amalgam in the teeth of pregnant women, nursing 
mothers, children under 6, and anyone with kidney disease.
    Dentsply, for example, warns, ``Contraindication 
(`contraindication' is a directive to forbid, not just a 
`warning'): in children 6 and under and in expectant mothers.'' 
Dentsply also supplies a warning on their MSDS to dentists that 
amalgam is dangerous for the environment. And you can see a 
copy of their MSDS on a report that's on the table.
    But then that information apparently gets stuck at the 
dentist's office. We did a national poll. We hired Zogby 
International, and what we found is that most Americans, 76 
percent, don't know mercury is a primary component of amalgam 
fillings; that 92 percent of Americans overwhelmingly want to 
be informed of their options with respect to mercury and 
nonmercury dental filling materials prior to treatment; and, 
finally, once they are aware that there is mercury in the 
amalgam, 77 percent of those surveyed would choose higher-cost 
fillings that did not contain mercury if given the choice.
    Mr. Chairman, I would like to join others and express my 
appreciation to you for holding this hearing. It's a very 
important topic area. I was joking that this dental sector 
seems to be one of the last sacred cows in the continued use of 
their justification for mercury.
    We know, from a ruling in Norway and Sweden just having 
banned amalgam in January 2008, that there is no reason to 
continue using amalgam. Those societies are just doing fine. 
They aren't having any kind of a health epidemic over there. 
They are doing very well. And they worked cooperatively with 
their dental association over a number of years to put controls 
on in their facilities and also to recognize that dental 
mercury is not appropriate in the human mouth.
    So what concerns me about the 30 tons of mercury that is 
still being used, which is 60 million mercury dental placements 
a year, is that I think that this dental sector is stuck in 
complacency, and it needs some kind of a regulatory incentive 
to move forward.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Bender follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
    Mr. Kucinich. Dr. Fischer.

                  STATEMENT OF RICHARD FISCHER

    Mr. Fischer. Thank you, Mr. Chairman, Ms. Watson and Mr. 
Burton.
    Current estimates indicate that the dental profession uses 
about 40 tons of mercury per year in the fabrication of amalgam 
fillings. These mixtures emit mercury vapor continuously for 
decades and are the major contributor of mercury to human body 
burden. EPA requires that the excess unused newly mixed amalgam 
be handled as a toxic waste disposal hazard, just as it does 
the amalgam particles from removing old mercury fillings.
    There are four major routes by which dental mercury may 
come into contact with the environment.
    The first is dental clinic wastewater. The process of 
either placing or removing mercury fillings generates a slurry 
of mercury-rich amalgam waste, which is vacuumed into the 
chair-side suction unit. According to a recent study 
commissioned by the ADA, 6\1/2\ tons of mercury are released to 
wastewater treatment plants annually by dentists in the United 
States. This represents more than 50 percent of the total 
mercury entering wastewater treatment facilities.
    The IAOMT, recognizing that the dental profession has the 
opportunity and the obligation to eliminate or reduce this 
environmental hazard, urges all general dentists to install 
effective mercury separator equipment. We support efforts to 
make this a regulatory requirement, since efforts toward 
voluntary compliance by dental associations have failed.
    No. 2, air discharge. Mercury vapor has also been measured 
in air vented from the central vacuum systems to the outside of 
the dental office. An estimated one ton of mercury vapor per 
year finds its way into the atmosphere through this route in 
the United States. There is currently no known technology to 
prevent this form of pollution.
    No. 3, amalgam in human cadavers. The EPA estimated that in 
2005 over 3 tons of mercury were released to the environment in 
the United States from crematoria.
    Four, human waste. Published studies have concluded that 
each and every amalgam bearer excretes an average of 100 
micrograms of mercury per day in his or her urine and feces. 
Assuming two-thirds of this mercury is derived from dental 
fillings, then 5.7 tons of dental mercury annually are flushed 
directly into our wastewater. Again, there is no known 
technology to prevent this form of pollution, nor are there any 
regulations over this form of domestic waste.
    The above four routes of mercury entering the environment 
combined for at least 16 tons of mercury annually from dental 
fillings. Less than half of that total, the 6\1/2\ tons from 
dental wastewater, can be captured by best management practices 
and amalgam separators in dental offices, but then only if 
mandatory.
    Over 1,000 tons of mercury are implanted in the teeth of 
Americans nationwide. Assuming a 10- to 15-year average 
durability of these mercury fillings in patients' mouths, this 
enormous reservoir of mercury will be continuously flushed into 
the environment for decades to come.
    Organized dentistry has established best management 
practices for managing hazardous waste. These practices have 
had disappointing participation by dentists when purely 
voluntary.
    For example, in the Seattle/King County area of Washington 
State, after 5 years of promises from local dental societies, 
2.5 percent of offices had complied. Currently, 11 States in 
various municipalities have replaced their voluntary programs 
with mandatory regulations, resulting in nearly 100 percent 
compliance.
    In those States and municipalities where amalgam separators 
are required, there has been a 50 percent reduction in the 
amount of total mercury from all sources entering wastewater 
treatment plants.
    When considering whether or not an amalgam separator 
installation should be voluntary or mandatory, we should 
consider information published in the fall edition of the ADA 
Professional Product Review. There it was reported that, ``A 
survey of members showed that relatively few panel members own 
an amalgam separator or plan to purchase one.''
    I have been practicing dentistry for 35 years, the last 26 
without using mercury fillings. I stopped using them when I 
discovered that the mercury was not locked in the fillings, as 
I had been told in dental school. I purchased an amalgam 
separator approximately 15 years ago when I discovered that 
this technology was commercially available.
    As a health professional, I am ethically bound to err on 
the side of caution for my patients, my staff, my colleagues 
and my environment. To place a mixture containing 50 percent 
mercury, the most neurotoxic element known on Earth, within 
inches of a child's brain stem and assume it's harmless is, at 
best, counterintuitive.
    To release the same pollutant into the wastewater is 
irresponsible when simple and available technology exists to 
reduce that release by over 95 percent. But that still leaves 
more than half of the dental-derived mercury that is dumped 
into the environment that remains beyond our ability to 
capture.
    We all remember the character The Mad Hatter from ``Alice 
in Wonderland.'' The character was based on the historical 
observation of workers who made felt hats in Connecticut in the 
1800's. The workers, or hatters, used mercury nitrate to shape 
the hats. The hatters frequently suffered from shakes, 
hallucination and dementia or madness due to that mercury 
exposure.
    The hatmakers stopped using mercury in 1943. It's now 2008. 
It's time for dentistry to stop the madness. Until dentistry 
joins the rest of the 21st-century health-care profession and 
abandons its use of mercury, there can be no effective 
environmental solution to the dental mercury crisis.
    Thank you.
    [The prepared statement of Dr. Fischer follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
    Mr. Kucinich. Thank you.
    Mr. McCormick, you may proceed.

                  STATEMENT OF CURT MCCORMICK

    Mr. McCormick. Good afternoon, Mr. Chairman, Mr. Burton, 
Ms. Watson and members of the subcommittee.
    I am Curt McCormick. I currently own a small business. But 
I think I was asked to show up today because I just recently 
retired or left the Environmental Protection Agency, the Denver 
office of the EPA.
    For 17 years, I was regional pretreatment coordinator 
there, which is a program which regulates local governments and 
requires that discharges to their sewer systems are controlled 
for pollutants.
    I also worked on a mercury-control strategy for the region. 
EPA in Colorado, Wyoming and Montana was the primary pollution 
control authority on municipalities, as the States do not have 
authority or do not authorize that program.
    I want to preface my comments today that, while I probably 
will be mentioning the ADA in some parts of this, I don't 
believe the ADA did anything inappropriate in their lobbying of 
Region 8 or EPA headquarters. I think most of my comments are 
directed toward the internal EPA process of developing guidance 
and providing technical assistance.
    I have to admit that the ADA was fairly tenacious in its 
efforts. And the outcome of their lobbying was fairly 
surprising in some areas, which I will go into.
    Your subcommittee has heard the testimony of EPA and others 
in the past about the importance of reducing mercury in the 
environment and contribution of dental waste amalgam. One EPA 
senior manager referred to the Clean Water Act pretreatment 
program, and that is the program I oversaw for much of my 
career. This federally mandated program makes controlling the 
discharge of mercury and other pollutants into a sanitary sewer 
system a regulated and local responsibility.
    While EPA Region 5, which was the Chicago office, the Great 
Lakes initiative, had acquiesced to the ADA's position that 
treatment not be a requirement for controlling dental 
discharges, EPA Region 8, which is the Denver office, we did 
not opt to adopt that voluntary approach to controlling 
mercury. We had a more mandatory requirement in the guidance 
that we developed. Our premise was that where a problem exists 
with a specific pollutant, local government pretreatment 
programs were required to control discharges of this pollutant 
into the sewer system. This approach is clearly reflected in 
the regulatory objectives of the pretreatment program that 
implement the Clean Water Act.
    As mentioned earlier, the ADA focused its efforts on all 
levels of government. And Jerry Bowman, assistant general 
counsel for the ADA, attended and spoke at a public hearing at 
a city council meeting in Laramie, Wyoming. The city intended 
to adopt mercury controls to address problems at their 
wastewater plant. Presentations by myself and the city 
pretreatment staff, in addition to local support by other 
locally regulated industries, was enough to assure that Laramie 
City Council that the Region 8 approach was consistent with 
their local regulations and a fair approach that included 
dental offices as part of a solution to an identified mercury 
problem.
    This outcome intensified the ADA efforts to work through 
the EPA Office of Water. In a letter to Ben Grumbles dated 
February 16, 2005, the ADA made it clear that they were very 
unhappy with the lack of progress that EPA headquarters had 
made in stopping my program's efforts.
    The ADA opens the letter stating, ``We appreciate the 
opportunities you have afforded us in the past. On December 15, 
2004, representatives of the American Dental Association were 
able to spend approximately an hour with you discussing, among 
other things, the association's deep concern with the 
contemplated approach of EPA Region 8 to dental wastewater. As 
we discussed, the region's draft guidance, on which the ADA 
submitted extensive comments, prohibits the very type of 
voluntary partnership which the administration otherwise 
supports. Moreover, the draft guidance requires amalgam 
separators whenever a POTW has a need to address mercury. At 
the end of our meeting, you indicated that you would speak to 
the Region 8 administrator on these topics. We have not heard 
back from you.''
    The letter continues with references to Region 8, its 
proposed mercury control efforts, and a concern that Region 8's 
approach will influence the rest of the country. EPA Region 8 
senior management responded directly and independently to the 
ADA in an April 22, 2005, letter stating that the Region 8 
supported the approach by my program and that the final 
document would continue to be consistent with the Clean Water 
Act and its implementing regulations.
    I have not seen copies of any responses by the Office of 
Water on the February 16, 2005, ADA letter. However, after the 
Region 8 letter of April 22nd, I was informed by my Region 8 
senior management team that my program strategy document would 
not be issued final. The message was that the Office of Water 
did not want it published final. Region 8 senior management 
told me that the draft version of the document would be made 
available to anybody requesting a copy and would be posted for 
download on the Internet. And it currently is still available, 
the draft, for download on the Internet.
    Regardless of the status of that document, my program, I 
continued to approve local programs, mercury-control 
regulations so that they would fully implement amalgam 
separator requirements where necessary. But the stoppage of 
this document put a dampening effect on some of the POTWs or on 
some of the cities adopting it.
    I will wrap up here quickly.
    I left the EPA in October 2007. I have written newsletters 
on interest groups and the regulation of mercury. A current one 
discusses a State of Michigan bill that allows for self-
regulation of dental dischargers. This bill specifically 
prohibits the State-mandated pretreatment programs from 
requiring any more stringent than what the State dental 
association deems necessary. EPA has been notified of this 
legislation and has taken no identified action to ensure that 
this bill will be consistent with the Clean Water Act.
    In conclusion, I believe that many scientists and 
regulators at EPA are perplexed at the evolving level of 
influence at the decisionmaking levels within EPA. As with 
other EPA staff, I took seriously the oath to uphold the law 
and believe in the mission of the EPA, even now having left the 
agency. However, I believe that there's a reinterpretation of 
that mission which has and will continue to result in the 
eroding of credibility and the loss of experts from the agency.
    Mr. Chairman, this concludes my statement, and I will be 
happy to answer any questions you or your colleagues have.
    [The prepared statement of Mr. McCormick follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Kucinich. I thank the gentleman.
    Mr. Walsh, you may proceed.

                   STATEMENT OF WILLIAM WALSH

    Mr. Walsh. Thank you, Mr. Chairman, Mr. Burton and Ms. 
Watson. Thank you for the opportunity to speak today.
    I am William Walsh from Pepper Hamilton LLP, outside 
counsel for the American Dental Association on amalgam 
wastewater issues. I have represented the ADA on these issues 
since 2001.
    The ADA is the world's largest and oldest dental 
association, representing more than 155,000 dentists 
nationwide. The ADA has issued and continually updates, as 
appropriate, its best management practices for handling waste 
amalgam. These BMP call for the use of standard control 
methods, recycling of collected amalgam and, since last fall, 
the use of amalgam separators.
    Even without separators, dentists capture in their office 
approximately 80 percent of the waste amalgam, with almost all 
of the remaining 20 percent being captured by wastewater 
treatment plants before the wastewater is discharged to surface 
water. In other words, 99 percent of the amalgam is already 
captured prior to discharge from the POTW. Adding a separator 
allows the capture of that additional waste in the dental 
office instead of at the wastewater treatment plant.
    The ADA has devoted substantial time and resources to 
promoting its best management practices. For example, in 2001, 
the ADA commissioned an independent study to determine how much 
mercury might be entering the surface waters from amalgam 
wastewater discharges. The ADA evaluated the effectiveness and 
the cost of amalgam separators, including contributing to the 
development of standards for testing separators that were being 
developed by the International Standards Organization.
    In 2003, ADA proposed to the Office of Water to initiate a 
voluntary amalgam wastewater reduction program in partnership 
with EPA, and has continued those discussions. The ADA proposed 
to EPA and participated in developing a standard for recycling 
amalgam waste that is collected in the offices.
    The ADA has conducted a comprehensive outreach and 
education program for dentists and dental societies, including 
numerous seminars for dentist and dental societies, articles in 
the ADA News, the peer-reviewed journal of the American Dental 
Association, and the ADA Professional Product Review, 
partnering with EPA to produce and distribute BMP brochures and 
videos to 43,000 dentists in the Great Lakes region in 2005.
    Several factors favor ongoing efforts.
    First, the dentist industry's goals as of last fall comport 
exactly with those of the government to minimize dentistry's 
discharge of amalgam waste.
    Second, dentists, as health professionals, would respond to 
scientific evidence and cooperative approaches. Some of the 
early efforts were not successful because of the lack of 
understanding on both sides. But the ADA and dentistry have 
learned from this past experience, they have calibrated their 
approach, and voluntary and cooperative partnerships have 
succeeded in some of the subsequent efforts.
    Third, according to the 1997 report to Congress by EPA, 
dentistry contributes to less than 1 percent of the total 
mercury found in our lakes and streams--0.4 percent mercury in 
surface waters.
    Fourth, mandating separators would require a costly 
inspection and enforcement apparatus, given that there are some 
100,000 dental offices that would need to be regulated.
    Fifth, nothing precludes in the proposals that the ADA has 
made the State or local agencies for enacting mandatory 
programs, should voluntary efforts fail. As the testimony 
submitted by some of the other witnesses indicate, many of them 
encourage cooperative efforts between the regulators and the 
local dental associations to determine whether mandating 
separators in a dental office is appropriate. And we think that 
decision is best left to the local authorities.
    Dentists drink and fish and swim in the same waters as 
everyone else in their communities, and they believe that 
ongoing efforts to encourage the use of BMPs, which includes 
separators, are succeeding and will continue to increasingly 
succeed.
    In closing, dentists have steadily reduced their already-
minimal contribution to metal mercury discharges to surface 
waters over the past decade. They bring to these efforts the 
same commitment they bring to providing the best possible oral 
health care to the American people.
    I will be pleased to answer any questions you might have.
    [The prepared statement of Mr. Walsh follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Kucinich. I thank the gentleman.
    I just want to remind all the witnesses that this Chair 
takes it very seriously when witnesses rise and take an oath to 
tell the truth. I just want you to understand that.
    I also want to ask the members of the committee, without 
objection, if each of us may proceed for a period of 10 minutes 
for the questioning of the witnesses.
    Without objection, so ordered.
    I am going to begin here and ask some questions of Mr. 
Walsh.
    I want to say that the subcommittee appreciates your 
participation on behalf of the ADA, because we are dealing with 
a matter that cannot be addressed without the participation and 
cooperation of the dental community.
    After listening to your testimony, I am somewhat confounded 
by the substance of it, because it seems that the ADA is at 
odds not only with the witnesses on this panel and the next 
panel but also with its best management practices, which 
recommend the use of amalgam separators. And this committee is 
going to ask you to help us understand.
    I want to begin with the impact of dental mercury emissions 
on the environment. Now, in your testimony--and you said it 
twice in the last minute--you said that dentistry plays a very 
small role in the overall issue of mercury in surface waters. 
Today, we have been discussing the impact of dental mercury 
emissions into the environment from wastewater, not surface 
water.
    Testimony for today's hearing indicates that dental mercury 
emissions constitute about 40 to 50 percent of the mercury 
found in wastewater, far exceeding the level of mercury 
discharge from all other commercial and residential sources.
    Mr. Walsh, do you agree with this finding, that dentistry 
is the largest contributor of mercury to municipal wastewater?
    Mr. Walsh. Yes, we do. The study we commissioned that I 
mentioned in my testimony determined that between 40 and 50 
percent of the mercury from amalgam discharged into wastewater 
treatment plants----
    Mr. Kucinich. OK, I am glad that you agree, because I have 
here a statement that agrees with your position. The World 
Health Organization that says that one-third of the mercury in 
the sewage system comes from dental amalgam flushed down the 
drain. And, more discretely, the Association of Metropolitan 
Sewage Agencies found that dentistry contributed 40 percent of 
mercury into wastewater, over three times the next greatest 
contributor.
    And so, in your opinion, Mr. Walsh, does dentistry play a 
significant role in mercury contamination into the environment? 
Yes or no?
    Mr. Walsh. No, because the wastewater treatment plant 
removes 95 percent of that mercury that goes into the 
wastewater treatment plant. You are looking at influent 
numbers, also the amount that may be collected in the sludge. 
The reason it is being collected in the sludge is it is not 
being discharged through.
    The study I mentioned looked at both the effect of 
incineration of the sludge for the 20 percent of the sludge 
that is incinerated, as well as the direct discharges.
    Mr. Kucinich. Thank you.
    To the other panelists, I would like you to respond to 
that, starting with Mr. Bender. Keep it brief, please.
    Mr. Bender. Wastewater treatment plants aren't set up to 
treat hazardous waste. It's very clear that most of the mercury 
ends up in the sludge, and the sludge gets incinerated or it 
gets land-applied or it gets used as a soil amendment.
    And there are a number of studies out there, which are in 
my previous testimony, I can provide to the committee, which 
indicate that mercury gets released into the environment; it 
does not get captured.
    Mr. Kucinich. Dr. Fischer.
    Pull that mic closer, please.
    Dr. Fischer. I would agree that 95 percent of the mercury 
in the wastewater from the amalgam does settle, but then it 
just goes from one pocket to another. I mean, I mean it's not 
reclaimed, recycled or captured in any way that's effective. 
It's been just put back into the environment in some other 
manner. The wastewater treatment plants aren't alchemists. I 
mean, mercury comes in; mercury's got to go out somewhere.
    Mr. Kucinich. Mr. McCormick.
    Mr. McCormick. Now, from a regulatory standpoint, all 
you're doing is disposing it from one media to the next. You're 
not actually reducing discharges to the environment. You are 
just sending them out either through the solids, through land 
application, incineration, generally through biosolids, so----
    Mr. Kucinich. Mr. Walsh, I want to ask you again, 
considering that dentistry is the largest contributor to 
mercury in wastewater and in light of the fact that once in 
wastewater mercury becomes part the sludge that is incinerated, 
landfilled or sprayed over the land, volatilized in some way, 
would you agree that dentistry does in fact play a significant 
role in mercury contamination into the environment?
    Mr. Walsh. No, because when we looked at various studies 
that had been done----
    Mr. Kucinich. OK. I'm going to go on. I'm going to go on 
with my questioning.
    In your testimony, you also say that, ``even if a dentist 
installed a separator, it would have little effect on the 
environment because amalgam is ultimately captured at the 
treatment plant.''
    I want to ask you a few questions about this. Are you 
suggesting that mercury discharged into wastewater is not an 
issue because it can be treated before the water is released 
into the effluent?
    Mr. Walsh. I'm suggesting that if the impact is surface 
water, which is what the impact----
    Mr. Kucinich. The question is----
    Mr. Walsh. If you prevent that----
    Mr. Kucinich. You keep on drawing a distinction between 
wastewater and surface water, but you're talking about surface 
water. This hearing is about the effect on wastewater. This is 
the point that I'm asking you; I'm asking you again, are you 
suggesting that mercury discharged in the wastewater is not an 
issue? Wastewater, you know the difference. Can you answer the 
question, yes or no?
    Mr. Walsh. I know the difference between wastewater and the 
surface water.
    Mr. Kucinich. Can you answer the question, yes or no, sir?
    Mr. Walsh. The wastewater is what is going into the POTW. 
It is captured. It is not discharged. The limits and the 
regulatory requirements are based on protecting the surface 
water and protecting the fish that are in the surface water. So 
it's relevant that the wastewater is in fact captured, whether 
it was originally designed, POTWs do in fact, and there is data 
that NACWA has done, many studies looking at many different 
treatment plants----
    Mr. Kucinich. This is one chairman who isn't going to let 
you run out the clock.
    Mr. McCormick, what about the wastewater and mercury 
capture at the publicly owned treatment works?
    Mr. McCormick. Well, as I indicated before, it is 
partitioned primarily--or it settles--it absorbs primarily to 
the sludge. I would have to take a little bit of an issue in 
that water quality, surface water quality, is one criteria that 
drives limits. However, I think what isn't being talked about 
is there are also standards for biosolids for mercury. There 
is--there are various standards that have to be met. And while 
surface water quality is one standard that has to be 
considered, I think biosolids or sewage----
    Mr. Kucinich. I want to go back to Mr. Walsh.
    Mr. Walsh, is it true or not that the International Academy 
of Oral Medicine and Toxicology has said that wastewater 
treatment facilities are not designed to process or handle 
heavy metals?
    Mr. Walsh. I don't know that particular reference, but I 
think the statement is correct that they were originally 
designed in the turn of the century to treat wastewater. The 
physics of the amalgam particles and the data that has been 
looked at across the board by the National Association of Clean 
Water Agencies show that in fact because of that physics 95 
percent plus of the amalgam particles are captured in the 
sludge, as was indicated. And in fact NACWA has said, looking 
at the mercury levels in biosolids across the country, that 
there are today, as a result of a number of mercury reduction 
programs, the levels are well below EPA's standards for 
biosolids.
    Mr. Kucinich. Well, we've received--as members of this 
committee, we've received testimony from several 
representatives of municipal wastewater plants. And in that 
testimony, we are told that precisely because wastewater plants 
cannot adequately remove mercury, the respective sewage 
district adopted a prevention policy and began with its dental 
community, who constitute the largest contributors of mercury 
to wastewater.
    Does everyone have this wrong, Mr. Walsh, or are we not 
understanding something about your presentation here? Could you 
help us a little bit?
    Mr. Walsh. The, particularly in the Great Lakes, which 
have----
    Mr. Kucinich. Can you be close to the mic?
    Mr. Walsh. Yes. Particularly in the Great Lakes, there is a 
very low water quality standard; I believe it is 1.3 parts per 
trillion. The level of mercury in rain, mainly from combustion 
sources, some of them outside the United States and some in, 
exceed that level. So the municipalities were faced with a 
tough problem; the level cannot be reached no matter what the 
discharge is. And in those areas, many of the municipalities 
are using a variety of techniques to try to get their sources 
to reduce the levels. And so--but there are other areas where 
there are aren't such low water quality standards, and there 
are no biosolids limits being exceeded, and there are no 
discharge surface water quality levels being exceeded. And in 
fact, the fish are not being--containing levels that are above 
the level.
    But remember, the ADA has taken the position that we 
should--every dentist in the country should in fact install a 
separator; that, as has been said, it is better to recycle this 
material; and that the preferable way is using the good offices 
and resources of the ADA to help communicate these requirements 
to the thousands of health and dental professionals to work 
cooperatively with government for the mutual goal.
    The goal here now is the same now. Admittedly when we 
started our discussions and were educating ourselves as to what 
was happening, the goal wasn't the same. But the goal is now 
the same: Gather as much of this as possible in the dental 
offices, get it recycled. There is a difference as to whether a 
voluntary program initially, as is always true in a voluntary 
program, the potential of it becoming mandatory is the 
preferable way. And we have to think for a number of reasons 
that it is preferable, but I think there is more agreement now 
than there has been historically on what to do.
    Mr. Kucinich. I thank the gentleman.
    I just want to conclude this round of questioning for 
myself by making this observation, and that is that you've said 
that the ADA supports the use of separators because they 
prevent, and this is a quote, a significant amount of waste 
amalgam from being deposited in wastewater treatment biosolids. 
And if the plants will treat the water in any case, then, you 
know, it is obvious, why would the ADA support the use of 
separators?
    What's happening here is that, while your best management 
practices say that, you focus on the word ``voluntary.'' That's 
where you're holding on to that for dear life, voluntary as 
opposed to mandatory. But we're talking about a neurotoxin 
here.
    Now I can understand and I've had debates with my 
Republican colleagues on the whole issue of regulation. And you 
know, there are some honest debates about it. How far do you go 
with regulation? But this is a particular area that has to do 
with a substance that has been found to not just be a 
neurotoxin, but that particular neurotoxin is associated with a 
whole other range of serious health implications.
    And so the questions of this subcommittee are going to 
challenge your position on the--I'm assuming will challenge 
your position on the difference between voluntary participation 
and mandatory. And it becomes particularly important since the 
ADA itself has taken a position that you support the use of 
separators.
    So the Chair recognizes Mr. Burton. I took 13 minutes. You 
can have the like amount.
    Mr. Burton. Thank you very much.
    The Association of Metropolitan Sewage Agencies estimates 
it costs as much as $21 million per pound to safely remove 
mercury once it becomes part of the wastewater stream.
    The Environmental Protection Agency estimates that sewage 
sludge nationally contains about 15 tons of mercury per year 
from all sources, not just dental amalgam. However, the 
Association of Metropolitan Sewage Agencies estimates that 35 
to 40 percent of the mercury load comes from dentists. That's 
roughly 6 tons of mercury. At 2,000 pounds per ton, that means 
it costs taxpayers roughly $252 billion per year to remove 
dental mercury from sewage sludge.
    In contrast, the company Solmetex sells amalgam separators 
priced from a low of $715 to $2,490. If every one of the 
155,000 members of the American Dental Association purchased an 
amalgam separator, it would cost anywhere from a low of 
$110.835 million to a high of $38--385.95 million one time 
only. Wouldn't you agree the most cost effective solution is to 
simply stop mercury contamination at its source within a 
dentist's office?
    Mr. Walsh. We looked at the cost effectiveness, but I 
believe the numbers you are quoting is if a POTW had to do 
additional reduction to meet numbers like the Great Lakes water 
quality standard of 1.3. The existing cost to POTWs, since 
their sludge levels are not exceeding the regulatory levels 
that were based on risk, as I understand it, is nothing. The 
plants, as designed, although that wasn't the purpose of the 
design, in fact collect the numbers we are talking about. 
Separators collect slightly more; it is an additional amount of 
collection.
    When you look at using the same kind of methodology that 
EPA uses, and you have to include the cost of recycling all of 
the amalgam that's collected because that's part of the cost, 
it is actually higher than it would cost to reduce mercury 
emissions from coal-fired plants. Despite that, the ADA has 
taken the position----
    Mr. Burton. Do you have any amalgams in your mouth? .
    Mr. Walsh. Yes, I do.
    Mr. Burton. Do you? Do you remember when they put those 
amalgams in your mouth?
    Mr. Walsh. I remember generally. It started when I was a 
child, and I have quite a few.
    Mr. Burton. Do you remember when they mixed it up, they put 
the mercury in and they mixed it up with this little machine; 
do you remember that?
    Mr. Walsh. I actually don't remember that. I know that was 
the practice until recently.
    Mr. Burton. I remember how they did it. They mix it up, and 
the dental assistant mixes it, and they put it in this thing, 
and then they put it into a device that inserts it into your 
cavity. And when put that into your cavity, they say, well, it 
is going to be inert; it is not going to cause any problems. 
But every time I every had an amalgam put my mouth, there was a 
lot of it that squished out and went into my mouth. And then I 
would rinse it out after they--while they were doing it, and we 
would spit it into the water container. And you know where that 
mercury goes then, don't you?
    Mr. Walsh. Yes, it goes down into the sewer system.
    Mr. Kucinich. It goes down the sewer system.
    Mr. Burton. The sewer system. What about the mercury that 
doesn't go down the sewer system that you swallow, because you 
can't get it all out? Does that have any impact on a human 
being?
    Mr. Walsh. Well, my testimony is focused on the 
environmental. I am an attorney. I think it would be beyond my 
capacity to testify on----
    Mr. Burton. Well, let me just tell you, it is my belief 
that if you consume mercury in any form or have it injected 
into your body, it is a contaminant that can cause neurological 
problems. And that's why I believe that they shouldn't be 
putting amalgams in a person's mouth in the first place. 
Separators are a plus. They are going in the right direction. 
But why in the world even put amalgams into a person's mouth? 
It doesn't make any sense to me.
    I know that, I've talked to some dentists who say, well, it 
costs more to put another kind of filling into a person's mouth 
and it may not be as durable as the amalgam, but nevertheless, 
you can do it. And for the additional cost, I think most 
people, if they are made aware that the amalgam is about half 
mercury, that they would opt not to have the mercury put into 
their bodies in the first place. And I just think there is an 
educational process that should take place in the dentist's 
office saying, the side effects of having mercury ingested into 
the human being either in the form of a vaccination or in the 
form of an amalgam.
    We were talking about the sludge that goes into the 
wastewater treatment system. Where does that sludge go when it 
leaves the treatment center?
    Mr. Walsh. About 20 percent of it nationwide is 
incinerated.
    Mr. Burton. Wait, let's stop right there. It is 
incinerated.
    Mr. Walsh. Correct.
    Mr. Burton. When it is incinerated, where do the particles 
go?
    Mr. Walsh. You mean the mercury?
    Mr. Burton. Well, anything that's incinerated, doesn't it 
go up in the air?
    Mr. Walsh. Some of it becomes ash. Some of the mercury is 
emitted. About 95 percent, 96 percent, I forget the exact 
figure, is captured in the pollution control device of the 
incinerator.
    Mr. Burton. OK, where does it go then?
    Mr. Walsh. I don't remember off the top of my head where it 
goes then.
    Mr. Burton. Well, it doesn't just disappear.
    Mr. Walsh. No, I assume it is disposed of.
    Mr. Burton. Is it recycled in some form into another 
mercury product?
    Mr. Walsh. I'm afraid I don't know what the----
    Mr. Burton. But you know it does exist; it is there.
    Mr. Walsh. Oh, no question, it's an element.
    Mr. Burton. So the mercury is in the environment after it 
comes out of an amalgam and goes through the system, right?
    Mr. Walsh. Could you repeat the question?
    Mr. Burton. The mercury that's in the amalgam, when goes 
through the system, the sludge or whatever it is, it is back in 
the environment some place.
    Mr. Walsh. It is in the sludge, which is either landfilled, 
and we've looked at the studies that have been done 
historically on the emissions from landfills and looked at the 
percentage of mercury that would be from sludge; it is a very 
small amount, but----
    Mr. Burton. Wait a minute. It says that 30 tons of mercury 
is going into the amalgams a year. That's the estimate.
    Mr. Walsh. Yes.
    Mr. Burton. Excuse me, 6 tons of mercury, excuse me, 6 tons 
of mercury is going into the amalgams per year. That 6 tons is 
going to go some place. It is either going to stay in a 
person's mouth or into the wastewater treatment system, and it 
is either going to be incinerated, in the sludge, or it is 
going to be sent someplace else, or it is going to be put into 
a landfill. If it is put into a landfill, it's going to leach 
down into the ground and into the groundwater.
    We've had tests of water in Indiana that's found mercury in 
the groundwater.
    Now, why in the world--I'm not talking about the separators 
now--why in the world wouldn't dentists or anybody that deals 
with mercury say, hey, it is a toxic substance, we ought to get 
it out of the environment in any way possible? And a dentist, 
knowing that they are working with it on a daily basis, why 
wouldn't they want to get it out of system?
    Mr. Walsh. Well, we looked at EPA's regulation, and these 
are long standing regulations from the 90's. They looked at all 
of those issues when they issued the regs. The National Academy 
of Science reviewed the biosolids limits, and the, I believe 
NACWA has said that all the evidence suggests that those 
metals, mercury included, are not causing health hazards when 
they are disposed of in compliance with those regs.
    Mr. Burton. Recently, the U.S. Food and Drug Administration 
settled a lawsuit with several consumer groups promising to 
classify dental amalgam and list the possible hazards involved 
with mercury-based fillings within a year. As part of the 
settlement, the FDA has even publicly withdrawn its claims that 
amalgam is safe for all and now warns--this is the FDA now--
dental amalgams contain mercury which may have neurotoxic 
effects on the nervous systems of developing children and 
fetuses.
    Why--does the American Dental Association agree with that 
warning?
    Mr. Walsh. Again, the purpose of my testimony and the focus 
is on the environmental impacts, and I am an attorney. I'm sure 
if you want to submit a question to the American Dental 
Association, they will provide an answer. But you're asking the 
wrong--you're just asking the wrong person.
    Mr. Burton. You don't have the answer to that.
    But the FDA has publicly withdrawn its claims that amalgam 
is safe for all and now dental warns dental amalgams contain 
mercury which may have neurotoxic effects on the nervous 
systems of developing children and fetuses. And that being the 
case, why would they put them in an adult's mouth in the first 
place, because obviously it could have an adverse impact on the 
adult as well? I just don't understand the ADA. I just do not 
understand it.
    When I had the amalgams put in any mouth, I can remember 
vividly, because I had some pretty bad teeth at one time, and I 
remember vividly them mixing it up and squirting it into my 
mouth. And I can remember, remember them sucking it out with a 
vacuum cleaner and it going down into the water system, going 
through the system. And when I'd spit it out, it was going into 
the water and down into the sewage system. And when I--and the 
part that went flushed out or vacuumed out went into my body. 
And I just can't understand why people don't realize that 
mercury is toxic, and it shouldn't be inserted into a human 
being in any form. And no matter how much you say--and I won't 
take any more time, Mr. Chairman--but no matter how much you 
say all the science and research----
    Mr. Kucinich. The gentleman has another 2\1/2\ minutes 
actually.
    Mr. Burton. Thank you.
    No matter what is said by scientific research or anything 
else, common sense would dictate to me and to any human being 
that's made aware of the dangers of mercury that it shouldn't 
be in your mouth. They took it out of thermometers. They took 
it out of Merthiolate, Mercurochrome. They took it out of 
ophthalmologic liquids. They take it out most of the children's 
vaccinations. It is still in--it is in almost all of the adult 
vaccinations. And I just cannot understand, it just alludes me 
why a substance that is as toxic to the neuro--neuro system 
would be put into the human body. I just can't understand it.
    With that, Mr. Chairman, I don't--I have a sense of 
frustration that goes on every time we have one of these 
hearings.
    I will just yield back the balance of my time.
    Mr. Kucinich. I thank the gentleman.
    Congresswoman Watson you may proceed for 13 minutes.
    Ms. Watson. I just want to let Representative Burton know I 
am sitting here so frustrated.
    And I really want to know, Mr. Chairman, why the American 
Dental Association would send their attorney and not a health 
professional for this hearing. Since the counsel for the ADA is 
here, we ought to have someone from the opposing side, some 
attorney come, because I've been listening to the responses. 
And these are truly the responses from a defense attorney and 
not the responses from a health professional who is interested 
in the health of every single human being here in the United 
States.
    So I'm going to address my questions to you, Mr. Walsh. 
Does the ADA support local and State government efforts to 
reduce mercury? And how does it encourage its members to 
cooperate in these programs?
    I want to go further to say, you said many minutes ago that 
it should be a local and State, but Mr. Burton is from a 
different state; I'm from a different state, and Mr. Kucinich 
is from a different state. We ought to have some kind of 
Federal regulation because the risk is the same regardless. I'm 
from California, and the risk is high, and you keep talking 
about the surface water. I want to tell you about the water 
that is waste that apparently is not being processed, because I 
have evidence.
    And I'm sure, Mr. McCormick, when I direct some questions, 
knows that there is evidence showing that the mercury comes 
from the waste that comes from dental offices mainly.
    And I also understand that Mr. McCormick's report in some 
way has been curtailed when it was completed, but I will 
address this to him.
    So will you please deal with what the ADA is thinking in 
terms of local and government efforts to reduce mercury? And 
then if it encourages its members to cooperate in these 
programs? Would you please respond?
    Mr. Walsh. Well, the ADA has been supporting, since at 
least 2002, efforts to reduce the discharge of amalgam into 
wastewater treatment plants, initially through what was then 
the use of best management practices that were limited to 
chair-side traps.
    Ms. Watson. Period, period. These were voluntary efforts, 
yes, no?
    Mr. Walsh. The ADA best management practices are voluntary 
recommendations of the ADA. We have no----
    Ms. Watson. OK, they are voluntary?
    Mr. Walsh. Yes.
    Ms. Watson. Thank you very much.
    Mr. Walsh. We also have worked cooperatively with 
regulatory agencies and various State agencies--State 
associations.
    Ms. Watson. OK, put a period there, because I'm going to 
use my time----
    Mr. Walsh. Yes.
    Ms. Watson [continuing]. Very thoroughly and wisely.
    How does the ADA encourage its members to cooperate with 
these programs? And what is the percentage of cooperation, 
voluntary cooperation?
    Mr. Walsh. The answer to that, you need to understand----
    Ms. Watson. Wait a minute. How does it encourage its 
members? Can you get right on point?
    Mr. Walsh. Well, they have developed their understanding. 
Dentists were not familiar with the regulatory system. They 
were being faced----
    Ms. Watson. So you're talking about enlightenment----
    Mr. Walsh. Well, first you have to educate anyone----
    Ms. Watson. I am an educator so I like that response.
    Mr. Walsh. Whatever it is, whether it is an enforcement 
action or a voluntary program, first, you've got to inform the 
regulated community----
    Ms. Watson. Good. Period on that, period, period, on that.
    Should we educate the patients as well when they walk 
through that door? Should we educate them about what the 
amalgam contains?
    Mr. Walsh. Again, that is not the subject of my testimony.
    Ms. Watson. Yes or no?
    Mr. Walsh. It's just not within my area of expertise.
    Ms. Watson. So you don't know. You don't know. You don't 
know if we should educate the patient?
    Mr. Walsh. I am----
    Ms. Watson. You know, that's why I want a health 
professional here, not you the counsel, because you represent 
just one side of this. And you're going to give me the legal 
jargon, and that's not getting to the problem.
    I'm going to have my staff give you the bills that I have 
introduced, 7 years. And we're trying to get them moving 
because my interest, my interest personally is protecting the 
health of the public. That's my interest. My interest is 
letting them know the risk they undertake when they have--I'm 
passionate about this because it happened to me. And they would 
send you the counsel and not the health professional.
    OK, you didn't tell me what percentage of the dentists are 
cooperating. Do you know that? Do you know that?
    Mr. Walsh. There are no hard figures. EPA----
    Ms. Watson. OK, you don't know it.
    Mr. Walsh [continuing]. Estimated----
    Ms. Watson. Don't give me the jargon, please. My time is 
limited. You don't know it. You don't have those figures; yes, 
no?
    Mr. Walsh. There----
    Ms. Watson. You don't have those figures----
    Mr. Walsh. We do not have any figures, correct.
    Ms. Watson. Yes, no?
    Mr. Walsh. We do not have any figures,
    Ms. Watson. OK, thank you.
    What was the difference about the experience in EPA Region 
8? And according to Mr. McCormick, you were strongly opposed to 
the EPA's guidance on setting and meeting local limits for 
toxic metal discharge.
    Mr. Walsh. We started voluntarily coming to EPA, over a 
year and a half before Mr. McCormick ever issued his guidance, 
seeking to put a voluntary program together to reduce the 
amount of amalgam. In the midst of that, we found out that the 
city of Laramie was being told that they would be enforced 
against if they didn't meet a number in a draft guidance.
    We asked to see the draft, so we could comment on it. Mr. 
McCormick mentioned a Region 5 draft. We had commented earlier 
in the year on a Region 5 draft, which in fact does not say 
``use only voluntary.'' It says, ``you may use a voluntary; you 
may use a mandatory.'' And it says you can use what was then 
just chair-side traps and vacuum filters or you could require 
separators----
    Ms. Watson. Period, period. Did you try to influence the 
outcome of the EPA policy in Region 8?
    Mr. Walsh. We filed public comments with Region 5, with 
Region 8, with EPA headquarters. We continue to fill comments 
in regulatory proceedings. Those comments are public record. 
Those comments have been given and are on the Internet. In 
fact, we file and attach all those comments.
    Ms. Watson. Let me read this. subcommittee staff spoke to 
the ADA and asked your representatives about the case. Jerry 
Bowman, the ADA's general counsel told my staffer or this staff 
of the committee that the ADA has no control over an EPA 
representative. However a letter written by Mr. Bowman to 
Benjamin Grumbles, the assistant administrator in February 
2005, reveals that the ADA tried to interfere with Mr. 
McCormick's initiative. Now I'm going to give you a relevant 
quote from that letter: Region 8 has clearly not shifted its 
position one inch since our meeting with you. As we stated 
then, this is a very damaging position. Through its proposed 
guidance, Region 8 will wipe away EPA's effort to reach 
consensus to work with small businesses and to encourage 
voluntary efforts and replace those goals with a command and 
control strategy.
    Mr. Walsh, please help me understand this, the ADA supports 
the use of amalgam separators, and you conceded the 
environmental impact of dental mercury on the environment was 
great. So why was the ADA so strongly opposed to EPA's efforts 
in Region 8? Do other State or local governments who try to 
initiate similar policies have the same to look forward to from 
the ADA? Do you have any idea? You're representing them. You're 
the counsel.
    Mr. Walsh. These decisions are made on a case-by-case 
basis. The Michigan Dental Association is supporting, contrary 
to what was said earlier, a statute that would require amalgam 
separators in Michigan. What we were doing then, this was 
before the recent amendment to the BMPs that required amalgam 
separators, is we're taking the position that the local 
governments, the State and local entities should be free to 
choose a voluntary program or a mandatory program.
    What Mr. McCormick, and he is trying to fulfill his duties, 
he precluded any voluntary program. We believe, given the 
number of sources, given the nature of the sources, 
professional people who were not familiar with the environment, 
that the preferable way and the more effective way to use the 
limited resources that the agency has on enforcement is to use 
a voluntary program always backed up, and we would be remiss if 
we didn't tell our members that this they don't fulfilling 
voluntary program, if it is not effective, a mandatory program 
would follow. But this has been done----
    Ms. Watson. OK, period, period, period, please.
    Mr. Walsh. Done by a number of----
    Ms. Watson. Period, period, when I say that, please cease, 
because I'm on time. They are keeping time on me.
    Mr. Kucinich. The gentle lady has another minute.
    Mr. Walsh. I apologize.
    Ms. Watson. The ADA supported a lawsuit filed by Laramie 
dentists opposing the Region 8 guidance; is that correct?
    Mr. Walsh. No, that's not correct. We filed comments 
publicly and appeared at the council meeting, and we explained 
the reasons we thought a more cooperative voluntary approach 
was appropriate----
    Ms. Watson. I got it, I got it.
    Mr. Walsh [continuing]. As was pointed out.
    Ms. Watson. Mr. McCormick, can you tell me about the--give 
me a summary of what your report showed for Region 8.
    Mr. McCormick. The strategy?
    Ms. Watson. Yes, and what your recommendations would be.
    Mr. McCormick. The chairman asked a really good question 
earlier. It was rhetorical, unfortunately, and deals with what 
exactly you're asking, is how far do you go with regulation? I 
kind of want to make it clear because everything seems to get 
spun here, and that's a frustration, when I was a regulator, 
that I always had. The law already exists, the Clean Water Act 
exists, and the regulation exists, and they clearly say, 
although the ADA probably wouldn't accept this, that we have a 
problem with the pollutant; it's mandatory to implement 
controls. It is not a voluntary reaction to a pollutant 
problem.
    The regulations already exist. They are black and white. 
There isn't a gray area there. And that's where--that's sadly 
where the influence is kind of coming in twisted. There is no 
leadership to make sure that these regulations are implemented 
and enforced. The regulations are there: If mercury is causing 
a problem, you must control it being discharged into a sanitary 
sewer system. There is no gray area in the regulations. That's 
what my strategy said. It said, like we do with every other 
pollutant that's causing a problem with an environmental 
criteria standard, you shall control discharges from 
nondomestic sources, which include dentists----
    Ms. Watson. A question to the Chair, ``shall'' and ``may'' 
are two different legal terms.
    Mr. McCormick. Absolutely.
    Ms. Watson. ``Shall'' was used, making it mandatory, 
correct?
    Mr. McCormick. In the regulations, it's ``shall.''
    Ms. Watson. The attorney is moving his head, because these 
are legal terms, ``shall'' and ``may.'' ``May'' is permissive; 
you do it if you want. ``Shall'' is mandatory.
    Mr. McCormick. I would just direct the ADA to the 
objective----
    Ms. Watson. OK. I just asked my staff to get me the 
language.
    Mr. Walsh. You should also look at the Court of Appeals 
opinion----
    Ms. Watson. Mr. Walsh, I was addressing----
    Mr. Walsh. Oh, I'm sorry.
    Ms. Watson [continuing]. Mr. McCormick. Thank you.
    Mr. Walsh, are you a member of Pepper Hamilton, L.L.P.
    Mr. Walsh. Yes, I am.
    Ms. Watson. Is that your firm? OK, the lawsuit I believe 
was filed--I'm not sure of this date--December 17, 2004.
    Mr. Walsh. That's the date----
    Ms. Watson. Somewhere in there.
    Mr. Walsh. That's the date we filed comments with the city.
    Ms. Watson. And you have--you wrote this letter, if I'm 
correct. This is the city of Laramie Public Works, you wrote it 
to the mayor and the city council member.
    Mr. Walsh. Correct.
    Ms. Watson. If there is anything I say, then you can 
intervene, and say, it is not correct or just not a factoid.
    Mr. Walsh. OK.
    Ms. Watson. And remember, you're sworn in, so that is why I 
say that disclaimer.
    You say: I have been retained by the Laramie Dental 
Association, which represents all 12 dentists in Laramie, WY, 
and the Wyoming Dental Association, and the American Dental 
Association to provide their comments on the city of Laramie's 
proposed local limit of two-millionths of an ounce of mercury 
per liter, that's 2 parts per billion, for wastewater 
discharged into the city of Laramie's sewage treatment plant. 
The ADA has also submitted comments on the EPA Region 8 draft 
guidance. That is the motivating force behind the enactment of 
this poorly--poorly--thought out ordinance and has met with the 
EPA assistant administration--administrator of water and his 
staff to address this draft document and as a part of its 
ongoing effort to develop a national guidance for reducing 
mercury releases from dental offices. And the Laramie dental 
community strongly opposes this specific ordinance.
    And then you go on to state the reasons. Is this letter 
authentic?
    Mr. Walsh. Yes.
    Ms. Watson. And you still believe those reasons that you 
state in your letter of December 17, 2004, are relevant to 
today?
    Mr. Walsh. Yes.
    Ms. Watson. OK. And you say there is no need to rush to 
judgment; the EPA guidance is still draft and is inconsistent 
with national policy.
    The intent and my intent is to change national policy.
    So I'm going to have your letter a matter of record, Mr. 
Chairman.
    Mr. Kucinich. Without objection the letter will be included 
in the record hearing.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Watson. And I want you to look at my proposed 
legislation, and I want to you respond to me and to the other 
members of this subcommittee as to how my proposed legislation 
would be opposed by the ADA and why.
    Do I have your commitment to do that, to look at my 
legislation and tell me if it's inconsistent with this letter 
that you wrote opposing the draft coming from Region 8?
    Mr. Walsh. We will look at it and respond.
    Ms. Watson. And get back to me.
    Mr. Walsh. As positively as possible.
    Ms. Watson. If you would respond, which I would appreciate 
it, I'm going to look at your letter, and I will read your 
response. And I will share it with the subcommittee and the 
Chair.
    Mr. Kucinich. I thank the gentle lady.
    Without objection, the Chair is going to continue with one 
more 5-minute round of each of the witnesses or of this next--
of this panel.
    I would like to begin with a question for Mr. Walsh.
    I want to ask you a question about what you term as your 
voluntary success stories in the ADA's comments to the EPA 
concerning its dental office scoping study. You reference five 
examples of voluntary success stories in Massachusetts, Duluth, 
Washington, Madison--and Madison, WI, and the Minnesota 
Metropolitan Council for Environmental Services. We have looked 
at these carefully, and this is what we found: With the 
exception of the Minnesota case studies, all were a 
combination--a combination--of voluntary and mandatory 
provisions. Even the exception proves the rule. In Duluth, MN, 
there are only 55 dental offices, and the lead chemists in the 
Western Lake Superior Sanitary District obtained a grant for 
all the separators acquired.
    Moreover, the sanitary district had a very hands-on 
approach and worked with every office to install the 
separators. Even the sanitary district told us that this model 
could not be replicated in a larger city.
    Duluth, MN, has submitted testimony to be entered into our 
hearing record.
    If we have a slide ready, can staff put up slide 3? Do you 
have that available? OK, between--is that the right chart? 
We're looking at the slide that has to do with the 
Massachusetts Dental Society.
    I'm just going to--do you have it? OK. Yeah, that looks 
like the right one.
    Is that OK?
    Between 2001 and 2004, a memorandum of understanding 
between the Massachusetts Dental Society and the State, and by 
2003, there was only a modest increase in the installation 
separators. In 2004, the Massachusetts Department of 
Environmental Protection initiated a followup program to speed 
up the process. It did two things. One, it offered incentives 
for voluntary compliance; and two, announced that mandatory 
regulations would be adopted in 2006. So that, by 2006, the 
compliance rate in Massachusetts was about 75 percent, and 
after the implementation of the mandatory program, compliance 
had jumped to 95 percent.
    Mr. Walsh, despite your testimony that deems Massachusetts 
a model for voluntary compliance, it should be noted that when 
it was strictly voluntary, between 2001 and 2004, it wasn't 
very successful at all.
    We also have testimony from Washington State; Madison, 
Wisconsin; and they tell a different story than the one that 
you've told. Like Massachusetts, their purely voluntary 
approach had no impact until there were incentives to install 
the separators and the government announced a looming mandatory 
program.
    In view of a full reading of the history of these case 
studies, wouldn't it be more accurate to describe these cases 
as models of government-dental collaboration as opposed to 
voluntary success stories?
    Mr. Walsh. I think my testimony, my opening statement, 
indicated that we had learned a lot in the dental community. We 
were talking about a problem that really wasn't on the horizon, 
certainly regulatorily, before 2001. And the dental community 
is 155,000 different people. They had to be educated as to the 
law. They had to be assured that, in fact, the separators--and 
they went out and did it themselves--could be tested, were 
effective, that we did surveys of the costs.
    I've mentioned a number of times the amendment of the best 
management practices last year to include separators; that--
dentistry makes many of the big decisions by vote of the House 
of Delegates. These are people elected by dentists 
geographically, and they vote. It was an overwhelming vote. 
There is no question that understanding and cooperation was not 
there initially, has grown over time. We believe that dentistry 
and the fact that we have a common goal now of 100 percent of 
all dentists should follow the best management practices, that 
this is still more like other examples. In 1999, EPA went to 
the laundries and said, there are so many little laundries, we 
want a voluntary program. It has been done with a number of 
different industries, including mercury in laundries; a lot of 
laundry detergents have mercury. The kind of----
    Mr. Kucinich. But we are not drinking the dirty water out 
of the laundry.
    I just want to point something out to you, and that is 
that, you know, you're suggesting that dentists now install 
separators because they are better educated, which is, you 
know, good, obviously. I mean, you're also suggesting, we've 
learned; we're trying to move in the right direction; and here 
is what we're doing; and this is the progress that we're having 
voluntarily. But in your testimony, you write that voluntary 
programs are just as effective as a mandatory approach. But 
according to the subcommittee's national survey, that doesn't 
seem to be the case.
    Can we put that next slide up there?
    Now, if you look at these figures and understand them, it 
shows that voluntary programs don't exact the same results as 
mandatory ones. That's what the record suggests.
    Would you like to respond to that, Mr. Walsh?
    I mean, what are your thoughts about this? Your whole 
presence here is trying to defend voluntary as opposed to 
mandatory, but here we've got some actual survey data that 
seems to contradict.
    We're informed that we have an up-to-date slide. Do you 
want to get it up there? Have you got it now?
    I'll give Mr. Walsh a moment to take a look at it.
    Mr. Walsh, do you have--does the committee staff have a 
copy of this?
    Can you see that, Mr. Walsh?
    Mr. Walsh. The slide that's up on the screen? I can see it.
    Mr. Kucinich. The name of the State, county municipality 
offices with separators installed; voluntary separators 
installed; mandatory.
    Mr. Walsh. And the question is?
    Mr. Kucinich. Well, the question is, voluntary or 
mandatory? I mean, you're defending a voluntary approach, and 
it seems that the compliance level just isn't there. And if you 
are recommending these amalgam separators on a voluntary basis, 
but it doesn't appear to work, why wouldn't the ADA change its 
position and tell people they have to have them in there? Why 
wouldn't you do that?
    Mr. Walsh. Well, what I think we would be doing, and this, 
again, the BMPs, we added the separators last October. The 
separator pieces are being put into the education requirements. 
What we have now is the leadership overwhelming voting for 
separators. That didn't exist, and there is no question, when 
this first came up, they first asked how can we be regulated; 
we're dentists? There is an education process, information 
process. Dentists like science. We went out and did the 
science. Many of these things the ADA has done on, you know, 
its own expense to help set the pieces that would allow for 
putting in separators, and we are willing to do other things to 
keep track of the information rather than a lot of paperwork 
going around, keeping track of actually how much dentists send 
amalgam to either recyclers or the amalgam separator 
manufacturers so we have hard figures, rather than pieces of 
paper that say this is what is being done.
    Mr. Kucinich. I just have to say that anyone who is 
watching this, just I would assume, as the unbiased observers 
that are out there, it seems that the ADA has a resistance to 
mandatory regulations with respect to dental mercury. It seems 
that your resistance to it is almost theological. Faced with a 
tremendous amount of evidence, you just don't want to get off 
that position of saying it is voluntary instead of mandatory.
    I'm wondering--it seems to me, and I don't know how my 
colleagues feel about this, but in listening to Mr. Walsh, he's 
very well spoken and obviously a very effective witness from 
the ADA's standpoint, albeit that there are some concerns that 
there are questions you couldn't answer, and we are going to 
submit followup questions to the ADA to give them a chance to 
go on record. But are there product liability concerns here? Is 
there something deeper here that you're--that a class action 
could be in the offing if all of a sudden, you take this, you 
feel that it would be fortifying a position and would undermine 
your position? Did you ever have any discussions about that?
    Mr. Walsh. Well, that would be attorney-client if I had 
discussions.
    But frankly, our concern is, it has to do with the nature 
of, I think, dentistry and what we think is the more effective 
way; 100,000 different dental offices is larger than most 
point-source dischargers in the country.
    Mr. Kucinich. Indeed, I mean that's why this has some 
consequences.
    Mr. Walsh. It also makes it difficult to enforce. We think 
that whatever the final decisions of either Congress or the 
agency, there should be cooperation between the government and 
dentistry.
    I understand that one can say it should have been done 
quicker, but there is a process that the American Dental 
Association goes through in terms of getting the science behind 
things, getting educated. And because they elect their 
leadership and some of these discussions are made by the House 
of Delegates, it is done with deliberate process, and we are 
now at a stage that's different from when we were in these 
other things.
    I mentioned a few minutes ago, the Michigan Dental 
Association is supporting now a statute making separators 
mandatory. Each State differs. There are different 
circumstances, and we think----
    Mr. Kucinich. I just want to say, this is very interesting, 
this assertion, because here we are, mandatory or voluntary, 
case-by-case basis, as if the science should be applied on a 
case-by-case basis. We either have scientific facts here that 
underlie the concerns that bring this subcommittee to this 
moment and health concerns, or it is just a case-by-case basis.
    You're an attorney. Surely, as an attorney, you are--bodies 
of law, it's understood, are--you know, the basis of them are 
not voluntary; they are mandatory. And when we're talking about 
regulation, the entire structure of regulation in this country 
is based on certain things you can't do.
    When Moses came down from the Mount, he didn't say, these 
are 10 voluntary ideas here, commandments; thou shalt not, thou 
shalt not pollute, perhaps. Or maybe, whether you like it or 
not, if you like to you could pollute, if you don't--this is 
where this whole meeting turns today. I would suggest to you 
respectfully as someone who has a great deal of admiration for 
the kind of effort that goes into a dental practice, into the 
life of a dentist, who understands the commitment that dentists 
have to their patients, the ADA, it seems to me, for whatever 
reason, whether it is product liability, class-action exposure, 
or what, the ADA is really behind the curve on this, and I 
don't understand why that is----
    Ms. Watson. Mr. Chairman, would you yield for a question?
    Isn't the Hippocratic Oath that you do no harm?
    Mr. Kucinich. I'm not a doctor, but I know that to be so.
    Ms. Watson. Well, next time we hold a hearing like this, 
would you bring me someone from the association who is involved 
with taking that oath rather than an attorney who doesn't take 
that oath?
    Mr. Kucinich. Well, we asked--in fairness to Mr. Walsh, I 
mean, we asked the ADA. First, we invited the president. The 
president wasn't available. We agreed that Mr. Walsh would be 
an effective witness on the question of regulation. Now, I will 
give you that much.
    Ms. Watson. He is.
    Mr. Walsh. Thank you.
    Ms. Watson. But not being a health professional who----
    Mr. Kucinich. But we have to set the ADA on record----
    Ms. Watson. Thank you so much.
    Mr. Kucinich. To say that mercury contamination to 
wastewater is environmentally hazardous. We still don't have 
that out of you Mr. Walsh, but I think that--I think we'll 
somehow be able to establish that with or without you.
    Mr. Burton, your time.
    Mr. Burton. I won't take much time----
    Mr. Kucinich. I just want to say, why else would they 
support separators if they don't believe that mercury 
contamination to wastewater is environmentally hazardous?
    Mr. Burton. I think, Mr. Chairman, a high school student 
studying science would know that mercury is not the sort of 
thing you would stick into a human being in any form. I mean, I 
don't think this is rocket science. I think anybody with any 
common sense knows that.
    And no matter how much you talk about it, mercury is a 
toxic substance, it shouldn't be injected into the human body 
in any form, period. It's just crazy.
    Now, I'm a conservative, and I don't believe in government 
regulation unless it is absolutely necessary. But when an 
organization doesn't voluntarily comply with something that's a 
public health hazard, dealing with public health hazards, then 
the government has no alternative than to do something about 
it.
    You know, in your testimony, you highlighted two programs 
to encourage dentists to voluntarily install separators as 
examples of why voluntary problems are better than mandates. 
The first program you talked about was by your ADA counterpart 
in 2003, involved dentists in Duluth, MN, where a voluntary 
program achieved a 100 percent remarkable compliance rate. Are 
you familiar with that?
    Mr. Walsh. I am, yes.
    Mr. Burton. Do you know that was paid for by the 
government, all those separators?
    Mr. Walsh. I know the dentists and the local POTW applied 
for a grant.
    Mr. Burton. But you didn't say that in your testimony. I 
mean, this was a voluntary program? I mean, the dentists didn't 
pay for any of it. It was paid for by the sewage treatment 
organization there.
    Mr. Walsh. The biggest cost of amalgam separators is not 
the purchase of the separator, but it is the recycling of all 
the amalgam. That cost is borne by----
    Mr. Burton. In any event, when you say it was a voluntary 
program, it was not a voluntary program. They voluntarily let 
them put them in their offices, but they didn't pay for them. 
And so I think there is a little bit of misleading of the 
committee there.
    Let me just say that I don't understand why we don't have 
somebody from the ADA here who is on the Board of Governors, 
whatever it is. You are a competent attorney, obviously, but a 
lot of these questions we have had and a lot of these 
statements that we have had that we wanted to make today was to 
the ADA itself. I think it is unfortunate that we don't have 
somebody from the ADA here to testify.
    Do we have anybody? Hold up your hand if you are a member 
of the ADA here. I would just like to know. You are a member of 
the ADA. Anybody else? But you are on the other side. I mean, 
is there anybody here with the ADA--no, nobody except you.
    Do you practice dentistry?
    Mr. Walsh. No.
    Mr. Burton. I just wanted to check.
    Mr. Walsh. I was a research physicist. If that helps.
    Mr. Burton. You were a research physicist.
    Mr. Walsh. Before I became a lawyer.
    Mr. Burton. Really.
    Mr. Walsh. Went to work for EPA.
    Mr. Burton. Did you ever put an amalgam in somebody's 
mouth?
    Mr. Walsh. No.
    Mr. Burton. I didn't think so. I tell you what. We have 
three other witnesses here who might have some things they 
might like to say on my time. So if any of you have anything 
you would like to comment on--you have heard all this testimony 
and the questioning.
    Mr. Walsh has been pretty kind to sit there and take all 
the punishment we have been giving him today, so I admire you 
for that. But I would like to hear from the three of you.
    Dr. Fischer, go ahead.
    Dr. Fischer. I am a member of the ADA, and have been for 
many years. I think one of my big disappointments 
professionally over the years has been the lack of leadership 
from the ADA on this issue.
    It is been a quarter of a century or longer now since I 
have stopped using amalgam, not because of anything I learned 
at an ADA meeting, but the ADA has sort of gotten in the way of 
a lot of informed consent legislation, as Congresswoman Watson 
knows, in California. They are not really trying to be 
responsible stewards. If they are putting 40 tons or 30 tons, 
whatever figure you want to use, into people's mouths every 
year, and there is 1,000 tons out there in people's mouths, you 
know, the only way to fix this is to put an amalgam separator 
on everybody's bathroom toilet or else stop putting it in.
    Mr. Burton. Mr. Bender.
    Mr. Bender. Thank you. First, thanks for the opportunity. I 
would like to correct for the record a statement Mr. Walsh 
made. I don't believe that sewage sludge incinerators have any 
kind of pollution control equipment, so they certainly aren't 
capturing 95 percent of the mercury without any kind of 
capture.
    Mr. Burton. While you are talking about that, you might 
elaborate and tell us where all that mercury goes and how it is 
distributed in the environment.
    Mr. Bender. Sure, thank you. Once the mercury gets 
volatilized it goes into the atmosphere and some of it, a 
certain percentage of it, rains down or dried up in a position 
locally, some of it regionally, and some of it goes into this 
global pool.
    Part of the concern about any dental mercury that goes into 
the air is that it will methylate, and when it methylates, it 
will get into the fish, and we know that is a problem.
    So, you know, a big area that hasn't been discussed today, 
which is in my written report, has to do with the cremation and 
the other air sources.
    During my last testimony in the fall, I presented 
information that there was between 7 and 9 tons of mercury air 
emissions from dental mercury releases each year. And I believe 
that Chairman Kucinich wrote a letter to the EPA asking 
questions about that number compared to the EPA's number of 
something like 1.5 tons, and I don't know whether or not the 
EPA has ever responded.
    But, you know, again, in Washington there seems to be a 
great concern over air releases, and we have had this--rightly 
so--a major focus on coal-fired plants which are estimated to 
emit 48 tons a year. Well, here you have another sector out 
there that is maybe emitting 10 tons per year.
    So, again, the concern there has to do with the 
methylization of the mercury and it gets in the fish, and we 
all know about the tuna and all the rest.
    But there are many different places, and Dr. Fischer did a 
great job in his testimony of laying out all the different 
places, where mercury gets released into the environment, and 
if there is the--the U.S. dental sector is still using 30 tons 
per year, 60 million mercury filling placements each year in 10 
years or however many years the life of those fillings, that 
mercury is going to get released into the environment, and it 
is a perpetual cycle. As much as you use the mercury, it is 
going to get released into the environment.
    One area that we focused on with State legislation is the 
manufacturers, and I have actually been thinking, in putting 
this report together the last few days, that maybe it is time 
to hear from the amalgam manufacturers, because there is about 
five or six of them in the United States, and I think most of 
them made both the mercury free so-called composites and the 
mercury fillings.
    So maybe we are--some of the focus we haven't had today is 
on all of these individuals dentists who are really trying to 
do the best job with misguided information, unfortunately, from 
the ADA, that we need to hear from these five amalgam 
manufacturers. Because their numbers don't--you know, they have 
to report by State law.
    We lost the Federal arm to be able to track this mercury-
use category with the U.S. Bureau of Mines stopping this 
tracking mechanism in 1999.
    Mr. Burton. I just want to make sure I get a chance to hear 
from Mr. McCormick, too. Go ahead.
    Mr. Bender. Sure. But the other thing I wanted to mention 
is there is a sort of a difference between sort of a laissez 
faire like voluntary installation of amalgam separators and the 
facts on the record. And the facts are on the record, and I 
have it in my written testimony, in California in 2005 the CDA 
single-handedly--sole opponent of assembly bill 996--defeated 
the legislation. In Michigan, ADA lawyers, helping with the 
separator issue, told a colleague that they would not have to 
deal with the issue in 2011.
    In Montana, in the ADA's own newsletter they talk about 
their one-two knockout punch. So, essentially at this point--
and it goes on and on, Oregon, Philadelphia, where have you, 
that we can't move this issue any more on the State and local 
level because they made it their business to stop us. So at 
this point we are coming to you because this State strategy is 
not working for us any more.
    Mr. Burton. So the point you are making very vividly is 
that they have a concerted effort to block anything but a 
voluntary program and the voluntary program simply is not 
working?
    Mr. Bender. Absolutely. Thank you.
    Mr. Burton. Let me followup with just one thing that you 
said and then I will just yield the rest of my time to Mr. 
McCormick, and that is that I, like you, believe that most of 
the dentists, probably 99 percent of them, are very honorable 
people trying to do a job, just like the doctors. But they are 
getting their information from the ADA just like the doctors 
are getting theirs from the AMA. I have talked to doctors and 
dentists, and unless it is coming from the gospel, which is the 
ADA, they don't believe it.
    Mr. Bender. Right.
    Mr. Burton. When you talk to them, and I have talked to a 
number of them about mercury, they say, hey, that is scientific 
research and the ADA says that, and that is gospel. So until 
the ADA changes and starts giving them facts as we see them, I 
don't think they are ever going to accept that. It is not 
because they are not good people, it is just that is what they 
are getting.
    Mr. Bender. Well, the only other pressure point we had, 
Representative Burton, I was a party in the lawsuit against the 
FDA to classify mercury as a medical device, and that is where 
we are starting to see a chink in the armor where the FDA, as 
you quoted, from their new information on their Web site, is 
now saying, admitting it is a neurotoxin. So I think we can 
also push on the FDA.
    Thank you.
    Mr. Burton. Mr. McCormick.
    Mr. McCormick. Yes, I was 17 years--among my other job 
duties--I was a credentialed enforcement officer with the 
Agency. I worked a lot of criminal cases as well as civil 
cases, and I have been cross-examined by some of the best 
environmental attorneys out there.
    I am an expert on the pretreatment regulations that cities 
have to comply with and that part of the Clean Water Act. If 
you want to keep it out of the sewer, the regulations are in 
place.
    The ADA can disagree, but 40 C.F.R. 403.2 says here are the 
objectives of the pollution pretreatment program, and it very 
clearly establishes that you can't cause problems with surface 
waters or any other environmental criteria.
    You know, again, my frustration is all we have to do is say 
let's enforce the regulations. That is what Region 8 strategy 
said, said where there is a problem you have to control it, and 
this is what it says in the pretreatment regulations 
implementing the Clean Water Act.
    It is not a gray area. OK, I have been on the stand. I have 
been grilled on pretreatment regulations. I am very well aware 
of the preambles to them, so I guess that is all I have to say. 
The tools are there.
    Mr. Burton. In 40 C.F.R. What?
    Mr. McCormick. 403.2--it is the objectives of the general 
pretreatment regulations. The tools are there. The regulations 
are there. What I was trying to do was take a document and 
provide technical guidance to State and local governments that 
said, and it is guidance, OK, it is not even rules. It said, 
here is a good way of doing it. OK. Here is a way to approach 
reducing mercury discharges to a sanitary sewer system when you 
have a problem with mercury.
    Very simple. I mean, it was very clear, and the ADA doesn't 
disagree with that, that is exactly what they admit it says.
    Mr. Burton. OK.
    Mr. McCormick. But it is mandatory at that point.
    Mr. Burton. Thank you, Mr. McCormick. Thank you all. Mr. 
Chairman, I yield back to you.
    Mr. Kucinich. Will the gentlelady yield?
    Ms. Watson. Certainly, and would you also ask the question 
of Mr. McCormick why did WHO ban mercury in thermometers.
    I will yield.
    Mr. Kucinich. I am still wondering, Mr. Walsh, before we 
wrap up work on this panel, the ADA supports separation, right, 
of the amalgams?
    Mr. Walsh. Correct.
    Mr. Kucinich. Why?
    Mr. Walsh. We believe that the best environmental result is 
to recycle the amalgam----
    Mr. Kucinich. You don't do it because it is about 
recycling, it is not about contamination to wastewater being 
environmentally hazardous?
    Mr. Walsh. Every study that has been done by NACWA, by EPA 
and our own studies show there is a contribution, but it is a 
very small, less than 1 percent contribution. We are willing to 
do our fair share.
    Mr. Kucinich. You then would agree that mercury 
contamination to wastewater is environmentally hazardous? You 
are just saying it is a question of the degree; is that right?
    Mr. Walsh. We have never attacked the water quality 
standard, which is a fish tissue number or the biosolids 
numbers. There are a number of plants across the country where 
the biosolids numbers are, in fact, on average, about 3, the 
limit is 57. And, in many places, the water quality standard is 
50 parts per trillion and the level, for example in Laramie, is 
8. And the fish levels are not exceeding 0.3. Even there we 
think the mercury ought to be recycled, because that is the 
best beneficial use.
    Mr. Kucinich. Is it environmentally hazardous? That is the 
bottom line. You basically say yes, but you are saying the 
degree to which the effluent exists from dental offices isn't 
significant, is that your testimony?
    Mr. Walsh. Yes.
    Mr. Kucinich. Why do you support recycling? Is it just 
because you are for recycling everything or because you think 
that mercury ought to be recycled?
    Mr. Walsh. We think mercury--well.
    Mr. Kucinich. Why?
    Mr. Walsh. The ADA hasn't taken a position on recycling in 
general. I personally think many more things ought to be 
recycled. But the mercury ought to be recycled because it is 
the way you can ensure that the mercury is reused. You don't 
have new mercury being created, and it doesn't--even the small 
amount of mercury that is incinerated or otherwise gets into 
the environment would be lessened.
    Mr. Kucinich. You know, I was struck by your candid 
admission that you are not a dentist, but you are a physicist. 
That is very interesting.
    When a piece of mercury metal is heated in air, it comes 
together with oxygen in the air, and then if it is weighed it 
is found to have a greater mass that the original piece of 
metal had. If, however, the mass of the oxygen of the air that 
combines with the metal is taken into consideration, it would 
be shown that the mass of the product is within the limits of 
accuracy of any one instrument equal to the sum of the masses 
of mercury and oxygen that combine.
    Are you familiar with that principle?
    Mr. Walsh. I am afraid, just the way----
    Mr. Kucinich. As a physicist?
    Mr. Walsh. You just read something that is very complex.
    Mr. Kucinich. Are you familiar with the law of conservation 
matter?
    Mr. Walsh. Yes, I am.
    Mr. Kucinich. As a physicist.
    Mr. Walsh. Yes, I am.
    Mr. Kucinich. As a physicist, do you see any relationship 
between mercury deposits in land and air as a function of the 
law of conservation and matter, of matter?
    Mr. Walsh. All the studies I have seen show that the levels 
in the environment are related primarily to air emission 
levels. The Everglades study, the Metallica study, various 
other studies. It is emissions in an oxidized form that ends up 
creating the methylated mercury that is accumulating in fish.
    Mr. Kucinich. Does the law of conservation matter, or does 
it not say that during an ordinary chemical change there is no 
detectable increase or decrease in the quantity of matter?
    Mr. Walsh. Mercury is an element. It is the same amount no 
matter what happens----
    Mr. Kucinich. So what happens to the mercury when it goes 
down the drain?
    Thank you. You are a physicist, and I am glad you showed 
up.
    This panel is appreciated, and dismissed.
    Mr. Kucinich. I will ask the individuals who are here from 
the second panel to come forward. Are there any physicists on 
this panel? Anybody? Do we have a physicist? Is there a 
physicist in the house? Let's get started.
    Well, since you are all standing.
    [Witnesses sworn.]
    Mr. Kucinich. Thank you. The witnesses have been sworn. Let 
the record reflect that the witnesses have answered in the 
affirmative.
    I am going to introduce them now, and we will proceed with 
our second panel.
    Ms. Pat Magnuson is an industrial waste compliance 
investigator for King County in the State of Washington, and 
which, of course, includes Seattle.
    She was responsible for coordinating the implementation of 
the county's plan to control dental office wastewater 
discharges. She also issues permits for and conducts 
inspections of a wide range of industrial dischargers to the 
county's sewage treatment plants.
    Ms. Ann Farrell is a Director of the Central Contra Costa 
County Sanitary District Engineering Department. Recently she 
has been heading up pollution prevention activities aimed at 
reducing the amount of mercury entering the wastewater 
treatment facility and eliminating the need for costly mercury 
removal projects.
    This source control program recently completed the 
implementation of a very successful mandatory amalgam separator 
program for the dental community.
    Dr. Mark Smith, Deputy Director of the Massachusetts 
Department of Environmental Protections, Office of Research and 
Standards. Dr. Smith is the cochair of the New England 
Governors and Eastern Canadian Premiers Task Force. Dr. Smith 
has been published numerous times in the areas of environmental 
policy, molecular epidemiology, genetic markers of 
susceptibility and risk assessment. He has been involved in 
mercury as well as environmental research for over 15 years.
    Mr. Owen Boyd is the CEO and principal founder of Solmetex. 
Under his direction Solmetex became the first water treatment 
company to migrate biopharmaceutical separation science to 
wastewater applications, and is also the first company to 
launch nanotechnology into water treatment fields. Mr. Boyd 
also coauthored a 2003 paper entitled Environmental Concerns of 
Dental Mercury. He has received numerous awards for his work, 
including the EPA's Environmental Technology Innovator Award.
    The witnesses have been sworn. We will go to Ms. Magnuson 
for an opening statement.
    As I indicated to the last panel, please keep your 
statements under 5 minutes in length. Your entire written 
testimony will be included in the record of the hearing, and 
you may proceed. Thank you.

STATEMENTS OF PATRICIA MAGNUSON, INDUSTRIAL WASTE INVESTIGATOR, 
 KING COUNTY, SEATTLE, WA; ANN FARRELL, DIRECTOR, ENGINEERING 
DEPARTMENT, CENTRAL CONTRA COSTA COUNTY SANITARY DISTRICT; DR. 
  C. MARK SMITH, DEPUTY DIRECTOR AND CO-CHAIR, MASSACHUSETTS 
 DEPARTMENT OF EPA, NEW ENGLAND GOVERNORS AND EASTERN CANADIAN 
       PREMIERS TASK FORCE; AND OWEN BOYD, CEO, SOLMETEX

                 STATEMENT OF PATRICIA MAGNUSON

    Ms. Magnuson. Mr. Chairman and members of the subcommittee, 
thanks for this opportunity to tell our story.
    King County operates the major wastewater treatment system 
for the metropolitan Seattle area, including two large 
treatment plants with average flows of over 200 million gallons 
per day. We discharge treated effluent in the Puget Sound, a 
sensitive marine waterway. One hundred percent of the residual 
solids from our treatment plants, known as biosolids, are 
reused beneficially in wheat and hop fields in Washington, on 
forest lands in the Cascade Mountains, and in a composted 
product available for landscaping. We control the source of 
contaminants into our system by means of our industrial waste 
pretreatment program and extensive work with small businesses 
and households.
    Most mercury that enters our system ends up in the 
biosolids, even though our marketability. Even though our 
biosolids currently meet all Federal and State regulations for 
mercury, our concerns for future marketability of these solids 
drives our efforts to continuously make them cleaner. And, 
also, the potential for stringent mercury limits in the future 
is also a concern.
    Under an agreement with the Seattle-King County Dental 
Society we conducted an extensive collaborative program from 
1995 through 2000 to promote voluntary compliance. We 
encouraged purchase and installation of amalgam separator 
units, which showed they could meet our limit for mercury. And 
the results, after 6 years, were that 24 dental offices out of 
approximately 900 had installed the amalgam separators.
    In 2001, in consultation with the local dental society, we 
decided that the voluntary program had failed and notified the 
local dentists that they would be required to meet our local 
discharge limits of 0.2 milligrams per liter total mercury. 
Using our existing authority we gave them the choice of 
installing separators or applying for a permit and proving they 
meet our limits without a separator, and we gave them 2 years 
to meet compliance.
    During that time, we provided extensive outreach to the 
dental offices, including technical assistance site visits by 
staff from the Public Health Seattle-King County to every 
office in the county. Local dentists did not fight this 
requirement but rather sought practical information about 
purchasing the separators and got on with the task.
    After the compliance date, approximately 750 additional 
dental offices had installed the amalgam separator units with 
the remaining offices quickly following suit by the end of 
2003.
    Since 2003, we continued to perform outreach to the dental 
community through letters and the dental office Web pages. 
Compliance rates are determined through ongoing compliance 
inspections and by monitoring the amount of mercury in the 
biosolids.
    In conclusion, the voluntary program did not result in a 
significant change in King County. When separators were 
mandated, compliance happened quickly, dramatically and with 
little resistance.
    Partially as a result of this initiative, mercury levels in 
King County biosolids have dropped by about 50 percent, and 
this represents about 75 pounds of mercury that are kept out of 
our biosolids each year.
    Then I am going to go to the attached slides, and the first 
one graphically demonstrates the number of amalgam separator 
units sold in our county during the voluntary phase from 1995 
through 2000 and the 2-year transition period from 2001 to 
2003, during which they were required to be in compliance.
    Slide 2, and this provides an interesting look at two 
different areas within King County that received technical 
assistance visits from the public health inspectors, and the 
chart on the left is the number of amalgam separator units 
installed within our source service area, which is only a 
portion of King County. And this is where our pretreatment 
regulations apply and compliance was mandatory.
    The chart on the right includes all other dentists in King 
County, and there are areas served by other sewer districts or 
on septic systems, and our regulations did not apply to those 
dentists.
    All dentists received the same visits and information 
packets by public health inspectors, but the dentists outside 
our service area didn't receive our mailing and were told it is 
not mandatory.
    Slide 3, that just presents the annual median concentration 
of mercury in our biosolids from 2000, the last year before we 
introduced our mandatory program, till now. And that shows 
about the 50 percent decline, and that remained there.
    Finally, I would like to close by saying that we were able 
to work with the local dental community and citizens of our 
county using existing regulations, and to develop a relatively 
low-cost method of achieving measurable reductions of mercury 
in our biosolids. Other communities have found different 
approaches that better met their particular needs, and local 
communities need to have the flexibility to address this issue 
in the manner that will work with them.
    [The prepared statement of Ms. Magnuson follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
    Mr. Kucinich. Thank you very much.
    Ms. Farrell.

                    STATEMENT OF ANN FARRELL

    Ms. Farrell. Good afternoon, Mr. Chairman, Ms. Watson and 
Mr. Burton. I am Ann Farrell, Director of Engineering for 
Contra Costa Sanitary District, a special discharge district in 
Martinez, California. We are responsible for the collection and 
treatment of wastewater for approximately 450,000 residents and 
more than 10,000 businesses in central Contra Costa County, 
which is directly east of Oakland and San Francisco.
    I appreciate this opportunity to discuss our successful 
program to require dentists in our service area to install 
amalgam separators and reduce the mercury entering the San 
Francisco Bay.
    The San Francisco Bay is impaired for mercury. As the 
development of the total maximum daily load of allowable 
mercury for the San Francisco Bay was occurring, it became 
clear to us in late 2003 that significant reductions in our 
mercury load to the bay would be required.
    We knew from previous studies that 50 percent of our 
influent mercury was coming to us from dental offices. We had 
tried in the past to implement mandatory programs, but the 
dental community had approached our elected board, and we did 
not obtain board support.
    This time we wanted to try a different approach and enlist 
the support and cooperation of the dental community so that we 
could be successful in implementing an amalgam separator 
program. We developed outreach materials, and we were basically 
trying to acquire informed consent, which was mentioned 
earlier. We wanted to document the changes in the regulatory 
climate and our potential regulatory risk, as well as our legal 
authority, to regulate the dental community. And we began 
meeting with the local and State dental societies.
    Once we began educating the societies themselves we 
received a great deal of cooperation from the Contra Costa 
Dental Society and the California Dental Association and 
particularly from Patricia Conley, Roseanne Harding and Theresa 
Pichay, who worked with us hand-in-hand throughout this 
process.
    In 2004, we began with a survey of the dental practices in 
our service area to obtain accurate inventory of the best 
management practices they were utilizing. The best management 
practices were voluntary, but the survey was required so that 
we could get accurate information.
    After analyzing the information we obtained, we observed 
that while many BMPs were being used, which accounted for 
basically general and good housekeeping, very few of the 
dentists had installed amalgam separators, less than 15 
percent. During that time, as we monitored our influent 
mercury, we found that the mercury had stayed about the same.
    We continued our outreach efforts to the dental community 
and shared the results of our inventory.
    At each of our meetings, the majority of the dentists were 
very supportive. They acknowledged that it was relatively 
inexpensive for them to install the amalgam separator 
equipment, and they understood that it would significantly 
reduce their mercury discharge to the environment, but they 
further suggested that it could be a competitive disadvantage 
and that they--it was not likely they would make the investment 
unless a program that was mandatory was implemented.
    During this same time period we continued with the carrot, 
not the stick approach. We took the opportunity to recognize 
any dental practice that voluntarily installed an amalgam 
separator through our annual pollution prevention awards 
program. However, during this time, this recognition was only 
conferred upon 13 dentists of the approximately 300 to 400 
dentists in our service area.
    Based on the continued series of meetings and discussions 
with the local and State associations, we determined that it 
was necessary to go back to our board and recommend a formal 
and mandatory dental amalgam program.
    At that time, because we had the endorsement of the local 
and State dental societies, our elected board adopted an 
enforcement program in April 2006. We then began the 
implementation of the program and the actual permitting of 
materials, and we continued to partner with the local and State 
dental societies. We allowed them to review the draft copies of 
our permits and provide input.
    The permit requires self-certification. In other words, the 
dentist certifies that he has installed an amalgam permit--an 
amalgam separator.
    We mailed the permits in three batches, and the compliance 
dates were staggered because we had learned from other 
municipalities and States that the dentists had been charged 
outrageous sums to comply with the deadlines by some of the 
plumbers. And so we wanted to give them plenty of time and 
stagger deadlines so that they could negotiate with their 
plumbers, with their amalgam separator suppliers and have 
reasonable costs.
    The mandatory permit and certification process was 
completed in about 10 months. After the final deadline of 
December 31, 2007, had passed, only a few dentists had not 
submitted the required forms. Today a total of 318 dental 
practices have been issued a BMP permit and 314 of them have 
submitted the required self-certification form, for a 98 
percent compliance rate.
    But we also need to look at the effectiveness of the 
program with respect to the mercury and our influent, and I 
believe there is a slide that shows our influent, which you 
can't read, so I will explain it. And, actually, I wanted to 
point out an error in the slide. Where it says parts per 
million, it should actually be parts per billion.
    But what we found is that our influent mercury 
concentration was reduced by over 70 percent, from 0.27 parts 
per billion in 2002 to 0.08 parts per billion in 2008. That is 
an annual average. Then our effluent, which is the mercury 
going into the San Francisco Bay, was reduced by 50 percent 
from 0.029 parts per billion in 2002 to 0.0149 parts per 
billion for 2008.
    I also wanted to point out, if you have the written 
testimony, there were some discussions earlier about the 
removal through a treatment plant. Our treatment plant is 
somewhat unique in that we have incineration, and we have wet 
scrubbers. So the mercury is removed from the air and goes into 
the wet--basically the treatment plant influent.
    Because it is in the scrubber water it is dissolved. So it 
is more difficult to remove it because it is not a solid that 
settles out. So if you study the chart, you will see that we 
only actually got about 27 percent removal of mercury in 2002, 
and with our reduced numbers we have about 29 percent removal 
of mercury.
    So the claim that you can get 90 percent removal of mercury 
through a wastewater plant is completely dependent on how much 
mercury is in the solids, because the solids are what is 
removed. If you have a lot of dissolved mercury, which may 
occur if you have an incineration process, then the mercury 
removal through the treatment plant is much less, and therefore 
the value to the environment of the mandatory amalgam separator 
program is that much greater because we are removing the 
mercury upstream before it can come in, be volatilized, be 
captured in the scrubber water and go out into the bay.
    So, in summary, the staff and our board are very pleased 
with the cooperation we received from the dental community, and 
we feel it is a very successful program, and we are going to 
continue to monitor it each year, to meet them, make sure the 
maintenance is occurring.
    And I welcome any questions when we get to the question 
period.
    [The prepared statement of Ms. Farrell follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
    Mr. Kucinich. Thank you very much, Ms. Farrell.
    Dr. Smith.

                 STATEMENT OF DR. C. MARK SMITH

    Mr. Smith. Thank you, Chairman Kucinich, Mr. Burton, and 
Ms. Watson, for inviting me today to testify about our efforts 
in Massachusetts and in the New England region to reduce 
mercury from the dental sector. I would also like to thank you 
all for summarizing, excellently, most of what I am about to 
say, and bearing with me to say it again.
    As a scientist, a fisherman and a father of children who 
love to fish and occasionally eat fish, I have been very 
concerned about the effects of mercury on our environment and 
on our children's health. To address the problem, I have been 
working in the mercury field in policy and research for the 
past 15 years.
    As we have heard today, many reports have concluded, I 
think appropriately so, that the dental sector is a significant 
contributor of mercury releases to wastewater, accounting for 
50 percent or more of the mercury found there.
    Mercury wastewater can be released to the environment 
through sludge incineration, through sludge reuse and from 
wastewater. I would also like to note that sewage sludge 
incinerators typically do not contain or have mercury specific 
control technologies, and a substantial fraction of the mercury 
will be remitted to the atmosphere. What is captured is 
typically captured by scrubbers, as Ms. Farrell mentioned, and 
then can be recirculated back to wastewater treatment plants, 
contributing to wastewater discharge releases as well.
    Mercury can also be released from sludge reuse. And in New 
England we estimate that about 12 percent of our air emissions 
are attributable to sewage and sludge incineration, which is a 
significant amount.
    Eleven States now, as well as numerous municipalities, have 
adopted mandatory programs requiring the use of amalgam 
separators. This is based on recent results from a survey of 
the States conducted by the Quicksilver Caucus.
    In New England, mercury from the dental sector is being 
addressed through the New England Governors and Eastern 
Canadian Premiers Mercury Action Plan, which was adopted in 
1998 and set a long-term goal of virtually eliminating 
anthropogenic sources of mercury in our region. We also adopted 
long-term goals of 50 percent reduction by 2003 and 75 percent 
by 2010.
    We have met and exceeded the plan's first goal, and we are 
well on the way to the 2010 target. We have done that by 
adopting State regulations that exceed EPA requirements in 
essentially all areas, focused on trash incinerators, coal-
fired power plants, mercury products and also the dental 
sector.
    I would also like to note that we recently completed a 
regional total maximum daily load assessment for mercury, 
indicating that mercury inputs to our water bodies will need to 
be reduced by 98 percent to restore those water bodies to a 
fishable condition where the fish will be safe to eat. Yes, 98 
percent is pretty high. In order to get there, you have to 
address all the sources, even ones that you might traditionally 
think are not significant.
    As I mentioned before, just looking at sewage sludge 
incineration emissions and the dental contribution to that, 
that is a source that we really do need to address in order to 
get our fish back to a situation where they will be edible.
    In 2005, we specifically adopted goals for amalgam 
separator use under our regional action plan. These goals were 
that 75 percent of dentists in our entire New England region 
would have amalgam separators installed by 2007 and 95 percent 
by 2010. In order to get there, all New England States have now 
adopted requirements for amalgam separators, and we currently 
estimate that over 91 percent of dentists who generate amalgam 
wastewater in New England are now using these pollution 
controls, reducing mercury entering the region's sewage by many 
hundreds of pounds each year and, of course, reducing emission 
from incinerators and the reuse of the sludge where the mercury 
concentrates.
    In Massachusetts, State regulatory agencies and the dental 
society of--Massachusetts Dental Society, signed a memorandum 
of understanding in 2001 to increase the voluntary use of 
amalgam separators in best management practices. Under this 
agreement, we did substantial outreach to dentists to educate 
them and had discount pricing on select amalgam separators.
    Although the MOU certainly helped to raise awareness, by 
2003 we only saw a modest increase in the sales of separators 
in our State. In 2004, Mass DEP, my agency, implemented a 
followup program to speed up the process. At the start of this 
initiative we announced that we would be adopting regulations 
in 2006 which would require the installation of amalgam 
separators to achieve faster reductions, because it typically 
takes us about that 2-year period to develop and implement new 
regulations.
    We instituted an incentive-based voluntary early compliance 
program. Dentists participating in this program were required 
to certify that they used an approved amalgam separator, 
followed best management practices and recycled all of their 
waste mercury. As an incentive, the participants in the first 
year were exempted from permit fees, saving them a few hundred 
dollars, and the installed units were grandfathered into 2010.
    Our local Massachusetts dental society was very helpful in 
getting the word out about this program, and 75 percent of our 
dentists participated in that early compliance program with the 
backdrop of the mandatory regulations coming down the road. 
Regulations requiring separators were adopted in 2006 pretty 
much on schedule.
    To date, over 98 percent of facilities that were randomly 
expected have been found to have appropriate amalgam separators 
installed. Despite some compliance issues that we found in our 
audits relating to record keeping and recycling, our initiative 
has been very successful, and over the 2-year period of 2004 to 
2006, when amalgam separator use increased to 75 percent in our 
State, mercury levels in sludge from the greater Boston area 
decreased by close to 50 percent.
    In conclusion, without appropriate pollution controls, the 
dental sector can be a significant source of mercury pollution 
to the environment. Amalgam separators can substantially reduce 
these releases. The successful experiences in Massachusetts and 
other States in reducing pollution from the dental sector will 
only support further national action in this area.
    Programs that include outreach through collaboration with 
State dental societies and that also include quantifiable goals 
and mandatory deadlines for the use of amalgam separators and 
other best management practices are both effective and 
achievable.
    Again, I would like to thank you all for the opportunity to 
testify today, and I am willing to answer any questions that 
you may have.
    Thank you.
    [The prepared statement of Mr. Smith follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
    Mr. Kucinich. Thank you, Dr. Smith.
    Mr. Boyd.

                     STATEMENT OF OWEN BOYD

    Mr. Boyd. Good afternoon, Mr. Chairman, Ms. Watson, Mr. 
Burton. I am Owen Boyd, founder of Solmetex. We founded 
Solmetex on the principle that we wanted to increase 
efficiencies in water technologies that were being deployed 
within the United States. So we took efficiencies that were 
being used in biopharmaceutical separations; namely, called 
advanced affinity chromatography, and we were able to migrate 
it into, at first, a resin that would remove mercury from 
water.
    We put systems into hospitals, we treat incinerator wet 
scrubber waste to remove mercury down to below a part per 
billion in water discharges. We do commercial installations to 
keep mercury out of wastewater. And we were asked to approach 
the dental industry to see if we could take mercury out of 
dental waste.
    After examining the profile of dental waste, we developed 
an amalgam separator. We call them amalgam separators because, 
in any other industry, they would have been called simply a 
filtration device. Most amalgam separators use, you know, one 
of four principles of filtration, which is centrifugal, 
mechanical, chemical or sedimentation. All of them have been 
used for well over a century. There is nothing novel about an 
amalgam separator. It shouldn't be viewed as a new technology. 
It is a simple filtration device held at point of source 
generation.
    We developed the device to make sure that we could not only 
take the mercury out but recycle the mercury so it didn't end 
up back in a landfill and just be a transfer waste.
    I am going to cover three areas. One is do amalgam 
separators work, do they have an impact on a sewage treatment 
plant, the cost and use of amalgam separators and a little bit 
of our sales history to show the impact of a regulation versus 
a voluntary approach.
    As I said, amalgam separators are filtration devices that 
have been used in a lot of dental clinics. In the European 
Union they have been used for well over a decade. The Paris 
Commission, PARCOM, in their Recommendation 93/2, they cited 
information received from Belgium, Finland, France, Germany, 
Iceland, Netherlands, Norway, Spain, Sweden, Switzerland and 
the U.K. That now will have mandatory regulations that the 
discharge of dental amalgam in the municipal systems has been 
significantly reduced by the use of separation equipment in 
recent years, in most cases by at least 95 percent.
    In Toronto, Ontario, the fifth largest city in North 
America, a 58 percent reduction of mercury in biosolids was 
recognized when an estimated 73 percent of dental clinics had 
complied with separator regulations. Their biosolid mercury 
concentrations were reduced from 17 kilograms a month, or 37 
pounds, to 7 kilograms a month. Additionally, a 13 percent 
reduction of mercury in their final wastewater was measured.
    Minnesota, two particular POTWs; that is, a publicly owned 
treatment work or sewage treatment plant, Hastings and Cottage 
Grove, their mercury in biosolids were reduced 24 and 49 
percent.
    U.S. Navy had 53 notices of violations from regulatory 
folks. That is now down to 3, 52 percent decrease in POTW 
biosolids.
    Duluth, MN, has had the same type of experience. Seattle-
King County, they have reduced their amount from 74 pounds per 
year in 2000 to 38 pounds in 2004.
    The Strategic Envirotech Partnership from the Executive 
Office of Environmental Affairs in Boston, MA, tested amalgam 
separators in dental settings, and they measured 99.85 percent, 
98.94 percent and 99.74 percent reduction in the three amalgam 
separator sites that they tested.
    The cost of an amalgam separator. There is a lot of 
different, varying costs, I can tell you. With about 120,000 
clinics that deal with amalgam, our cost of $750 per system, 
that would run about $90 million to install at all of those 
clinics, and it would cost an additional $34 to $34.5 million a 
year to maintain those systems so they continue to be 
operational. That would be the cost of the removal at all 
dental clinics across the United States.
    If you can bring up slide 1 for me, these are actual 
numbers, and what that shows you is our units sold in what we 
refer to as States with regulations, States with partial 
regulations, and States with no regulations whatsoever.
    Partial regulations, these are States, you know, like 
California, where you have individuals POTWs or cities that 
take action, but not the whole State is regulated, and there 
were a number of States that do that, and it is in my written 
testimony.
    But you can see that, you know, what this chart shows you 
is that the States with the legislation, our sales are sky 
high. Those without, which are the yellow bars, are essentially 
unaffected. Those with partial regulations, we had very good 
results.
    As a matter of fact, if you looked at the results in total, 
that would show you that within the United States we have 93 
percent of our sales are in regulated or nonregulated or 
partially regulated States. If you took all of our sales 
internationally and domestic, 99 percent of our sales are in 
regulated areas or partially regulated areas.
    If you look at the next slide, this will give you an 
impact, because we track our sales month-by-month in every area 
that is regulated. And what you can see is that the left side 
of that scale, that is a percent of sales, you can see that as 
a regulation comes into effect, the first 24 months we see very 
little activity. As the deadline approaches, you can see, 
literally, between 8 to 2 months before the deadline, the 
majority of our sales occur. You can also see--if you notice on 
the blue line, that is where you can give a lot of credit to 
the Massachusetts Dental Society for putting extraordinary 
effort into a voluntary approach. And we tracked that 24 months 
as a period of voluntary approach with a threat of regulated 
approach, but they got an awful lot accomplished in a short 
period of time.
    But what all that data shows you, in summary, first off 
amalgam separators do, in fact, work, if maintained properly. 
You can see the impact on regulations. If there were no 
regulations in the United States, we wouldn't be marketing 
here, we would be marketing elsewhere. And the cost for 
Solmetex systems is about $120 million to acquire the equipment 
and another $34.5 million to maintain that equipment.
    That number is not an estimate, it is reality, because we 
keep track of how many replacement cylinders are sent to each 
dentist every year, and the average is they change a little 
less than one replacement filter per year.
    I am going to go back to that graph just for 1 second. 
There is an interesting little note on followup. The yellow 
line you will see after the regulation, the deadline date, you 
will see another bump in sales. That bump in sales actually 
correlates to a letter that the Connecticut DEP wrote to 
dentists after regulations had passed. They had an indication 
that a lot of dentists had not complied. So they asked for a 
serial number, manufacturer number, installation date and the 
installer. And we saw another bump in sales as the enforcement 
arm of the regulation took place.
    Thank you.
    [The prepared statement of Mr. Boyd follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Kucinich. I thank all the witnesses. I would like to 
begin with a 5-minute round of questioning, begin with Ms. 
Magnuson.
    As an alternative to installing separators, King County 
could have chosen to treat its wastewater mercury. Why did you 
decide against that option instead of treating it and 
installing the separators?
    Ms. Magnuson. Instead of treating it at the treatment 
plant?
    Mr. Kucinich. Yes, yes.
    Ms. Magnuson. I don't think--it is costly to treat it at 
the treatment plant. Is that the question?
    Mr. Kucinich. Yes, you had a choice. Why did you do the one 
instead of the other?
    Ms. Magnuson. We had the choice? No, actually, King 
County--our treatment plant effluent limits and even the 
biosolids mercury levels were within our limits for our MPDS 
permit.
    Mr. Kucinich. What about the cost of treating it at the 
treatment plant? Is there a cost involved there? Is it a high 
cost?
    Ms. Magnuson. If the technology, yes, is there, it is a 
high cost. I don't have the costs for treating it at the 
treatment plant right now. NACWA did some studies, so I don't--
--
    Mr. Kucinich. Do you have any information about the cost as 
far as the breakdown?
    Ms. Magnuson. For the treatment plant, to treat it at the 
treatment plant?
    Mr. Kucinich. Yes. You said it would be prohibitive?
    Ms. Magnuson. It is prohibitive, and it runs in the 
millions of dollars, like tens of millions of dollars, if it 
exists, you know, if the technology would be viable.
    Mr. Kucinich. So you are saying then that the separators 
are preferred to trying to----
    Ms. Magnuson. Treating it at the source. Any of the 
pretreatment for metals, it is always preferable to treat it at 
the source.
    Mr. Kucinich. Ms. Farrell, I understand the first time you 
considered installing separators in dental offices you 
experienced strong resistance. What was different about your 
second attempt and what can you recommend to other counties 
considering policies to reduce dental mercury emissions?
    Ms. Farrell. Well, the first time we just kind of rolled 
out the program, and we didn't go work--do the prework with the 
dental societies. And so they immediately came to our board 
meeting and complained to our board, who is an elected board, 
and that was kind of the end of that.
    So the second time we got a little bit smarter, and we 
approached them. I think, also, times had changed where they 
were beginning to understand that this was coming down the 
road.
    We had a real regulatory requirement that we were going to 
have to meet that was going to cost us in the tens of millions 
of dollars, so we basically need to educate them that this was 
the least expensive way to meet our requirements for the 
community at large.
    Mr. Kucinich. Thank you. During your outreach meetings to 
dentists, you have said that dentists actually requested that 
the central Contra Costa County make separators a mandatory 
policy. Why was that?
    Ms. Farrell. I am not sure I said they requested. I think 
they acknowledged that it was unlikely we would get a high rate 
of participation without a mandatory program.
    Mr. Kucinich. Thank you.
    Dr. Smith, do you think it is accurate to describe the 
Massachusetts program as a voluntary one? Why or why not?
    Mr. Smith. I would say that the overall program was not 
strictly a voluntary program.
    Mr. Kucinich. Meaning what?
    Mr. Smith. Meaning the voluntary component was really 
applicable only to the incentivized early compliance part of 
our program, which was backstopped with a mandatory regulation.
    Mr. Kucinich. Did you offer incentives? What incentives did 
you offer to dentists who voluntarily installed separators 
before the program became mandatory?
    Mr. Smith. The two incentives that we offered, one was that 
we waived the permit fee so they did not have to pay permit 
fees if they came in early in the process. And the second 
incentive was that the units they installed were grandfathered.
    And in the voluntary compliance program, that early 
compliance component, we only required separators to achieve a 
95 percent removal efficiency. The regulation specifies 98 
percent, so it is modeled on regulatory certainty.
    Mr. Kucinich. So based on your experience, have you or 
would you recommend other States offer similar incentives?
    Mr. Smith. Yes, I think the incentives worked extremely 
well and were highly supported by the Massachusetts Dental 
Society. I think it really galvanized attention to dentists who 
really wanted to do the right thing, who realize that they 
needed or should be putting on the amalgam separators. And here 
is the shot in the arm to actually get them to take the step to 
do it.
    Mr. Kucinich. So you have established that a beneficial 
effect can be made on the environment if every dentist 
installed a mercury separator; do you believe that?
    Mr. Smith. Yes, absolutely.
    Mr. Kucinich. What have been the costs in terms of time and 
money associated with maintaining the dental mercury program?
    Mr. Smith. For the State?
    Mr. Kucinich. Yes.
    Mr. Smith. We haven't broken it down that way, but in order 
to minimize the expense in terms of staff resources to the 
Agency, and also to make it easy for the dentists to basically 
submit, we have been using a self-certification process. And we 
developed an electronic e-form that the dentist can basically 
fill out and submit to the Agency, which makes it very easy 
once the form was developed. Getting the form developed was 
difficult. So the cost to the Agency has been relatively 
modest.
    Mr. Kucinich. I would just like to say that the staff will 
submit some questions so that we can better quantify this as we 
prepare our report on this committee.
    Mr. Smith. If I could just add one more thing because it 
was brought up earlier.
    Mr. Kucinich. Sure.
    Mr. Smith. On the compliance and enforcement end, you don't 
have to go visit every single dentist to verify compliance and 
enforcement. We are using statistically based sampling to do 
that, which really minimizes the expense and gives you good 
data.
    Mr. Kucinich. That is noteworthy. I appreciate that. Thank 
you.
    Mr. Burton.
    Mr. Burton. Thank you, Mr. Chairman. Dr. Smith, you said 
that the amount of mercury in the fish up there really hasn't 
improved all that much.
    Mr. Smith. We actually have been seeing some improvements 
over the past--well, since 2000 to 2007, mercury levels in fish 
in Massachusetts have decreased by approximately 20 percent, 
depending on where you look.
    Mr. Burton. Are you eating fish up there that comes out of 
that area?
    Mr. Smith. Some of the fish are edible, are safe to eat. 
Many of them are still not safe to eat. I think we have a long 
way to go before they are.
    Mr. Burton. How do you decide when you go to the 
supermarket which fish to buy?
    Mr. Smith. Well, the smaller fish. Stay away from the tuna, 
the swordfish. Stick to the cod, the flounder and fish like 
that. Farm-raised salmon tend to have lower levels.
    Mr. Burton. Isn't that a heck of a thing you have to go 
through?
    Mr. Smith. It is.
    Mr. Burton. I don't eat much meat. I eat fish and chicken. 
It just bugs me to death to think that there is a lot of 
mercury in there.
    Mr. Smith. Yes.
    Mr. Burton. Ms. Farrell, without the separators the percent 
of mercury remains fairly consistent; is that correct?
    Ms. Farrell. That is correct. We saw very little reduction 
until we had the mandatory program.
    Mr. Burton. And, Mr. Boyd, you said that in Europe the 
compliance was almost 100 percent because it was mandatory; is 
that right?
    Mr. Boyd. That is correct.
    Mr. Burton. So I deduce from all of your testimony what the 
lawyer for the ADA was saying wasn't quite correct in that he 
thought that the voluntary program was going to be effective. I 
mean, all of you can answer once, if you want to. You don't 
think the voluntary programs work that well?
    Mr. Smith. I would say there is no good evidence that would 
support that.
    Mr. Burton. Well, there you go. As Ronald Reagan would say, 
there you go.
    I just wish they were still here so they could hear your 
testimony. I am sorry, but I think they already know it. It is 
just a matter of making sure that the message gets through to 
them. I know you don't have anything to do with this, but I 
just wish you guys didn't have to worry about this. I wish we 
weren't putting amalgams in people's mouths in the first place. 
But anyhow I really appreciate your testimony.
    Mr. Chairman, again, I want to thank you for having this 
hearing. I yield back.
    Mr. Kucinich. I thank the gentleman. The Chair recognizes 
Ms. Watson from California.
    Ms. Watson. I want to thank all of our witnesses for 
providing us with the empirical evidence, and I will join with 
my colleague and say I wish the attorney were still here. You 
know, we sit through a lot of these hearings, and these 
attorneys come in and they tend to get you all tied up in 
legalese so that we miss the point. Thank you for coming and 
giving us the specific evidence from what you are doing in your 
respective locations.
    I want to thank Dr. Smith in particular. I found your 
information to be very helpful. And Mr. Boyd, you have had some 
experience from the commercial, retail end. So I would like to 
have you tell about one experience where you provided free 
separators to dental offices, dental offices in Highland Ranch, 
Colorado, to encourage them to install separators in their 
clinics, and what was the outcome from this pilot project. Do 
you remember that one?
    Mr. Boyd. Yes, that pilot project was actually an 
opportunity for us to put in a very scientific setting the 
impact of an amalgam separator. It is unusual to have an 
opportunity to treat just the mercury influent with no other 
mercury initiative going on and measure quantitatively the 
reduction of mercury and solids and the production of mercury 
in their liquid wastes as well.
    So we, in a voluntary effort with the local sewer district 
out there, have provided free separators and we are doing free 
analyticals as well, which are being backed up by the local 
agency.
    The results aren't all in yet. It is probably going to be 
about another 6 months before we have definitive results.
    We had a similar opportunity in the city of Toronto, where 
there were no initiatives, but I can't say the science that was 
behind it was rock solid that showed that the impact of amalgam 
separators up there was incredibly dramatic. And, rather than 
argue the point, you know, we sort of go about it in a very 
scientific fashion saying we will provide the data.
    Ms. Watson. Thank you.
    In light of the information reflected in your second graph 
regarding the deadline dates, what kind of deadline would you 
recommend to State and local governments considering mandating 
the use of separators in their State, city or counties?
    Mr. Boyd. The experience that we've had is that a, you 
know, a mandated regulation, again, you will have some plumbers 
that if you give them a 3- or 4-month mandate, you know, 
plumbers will wreak havoc on the dental community. However, 
even with a 2-year, we have found most of the dentists buy in 4 
months before the deadline anyway and set their own trap. So, 
you know, somewhere in between is probably the proper 
timeframe.
    Ms. Watson. Very good. Thank you.
    And can you tell us about your previous experience, 
specifically in Maine, and what was significant about your 
participation, and what was the result of the Maine hearings 
that you had?
    Mr. Boyd. Well, in Maine, I probably found myself in a very 
unusual situation in that I was testifying for folks that 
wanted amalgam separators and for the Maine Dental Association 
simultaneously. And what we were trying to do was to provide 
reality, because a lot of the regulation was being passed with 
what is called an ISO standard of performance, which is a 
static test run by an international--under an international 
standards organization protocol that determines the efficiency 
of a unit in that static test.
    And the efficiency of that unit, if you looked at the 
volume of mercury that you have to remove, whether something is 
95 percent or 99 percent efficient, those efficiency numbers 
are almost invalid in terms of making much of a difference. The 
standard says you have to meet a 95 percent criteria, and my 
argument to the folks that wanted amalgam separators was, stay 
at 95 percent; if you go to 99, you'll limit the market choices 
the dental community will have, and then people like me could 
take advantage.
    So I argued against my own company's separators on that 
particular regard and argued for the Maine Dental Association 
that the 95 percent number would get the folks that wanted 
mercury reduction, it would get them the same equivalent 
reduction because the static test was not that representative 
of what actually occurred in a dental setting. So whether it 
was 95 or 99 percent statically, you know, when those systems 
are put into actual use, they still run about 98, 98 to 99 
percent efficient.
    Ms. Watson. And I will just close with this.
    Mr. Chairman, you have been very kind to give us this time.
    As we try to look nationally and make policy, I would like 
you to take a look from the retail commercial end at my 
proposed measure, and we'll get you a copy, and suggest what 
policymakers should really do.
    I'd like Dr. Smith to do the same thing, and maybe all four 
of you, you know, what we should set as a national policy. You 
heard the attorney before, and rather than go down the wrong 
path because we're not considering both ends of this, I would 
like to get some feedback from you who have put what we're 
trying to do in practicality as pilot projects how we as a 
Federal Government can design the policy so it will be 
effective.
    Mr. Boyd. It would be my pleasure.
    Ms. Watson. Thank you very much.
    And, thank you, Mr. Chairman.
    And thank you, Mr. Burton.
    Mr. Kucinich. I thank the gentle lady from California.
    This has been a hearing of the Domestic Policy Subcommittee 
of the Oversight and Government Reform Committee. The title of 
today's hearing has been, ``Assessing State and Local 
Regulations to Reduce Dental Mercury Emissions.'' We have had a 
distinguished group of people here to testify. Panelists have 
included Michael Bender, the director of the Mercury Policy 
Project; Dr. Richard Fischer, the former president of the 
International Academy of Oral Medicine and Toxicology, Dr. 
Fischer is a dentist; Mr. Curt McCormick, former administrator, 
EPA Region 8; Mr. William Walsh of counsel to the American 
Dental Association.
    Our second panel, we've had Ms. Patricia Magnuson, the 
Industrial Waste investigator, King County, Seattle, WA; and 
Ms. Ann Farrell, the director of the engineering department 
Central Contra Costa County Sanitary District; Dr. C. Mark 
Smith, the deputy director and cochair of the Massachusetts 
Department of EPA and New England Governors and Eastern 
Canadian Premiers Task Force; and Mr. Owen Boyd, CEO of 
Solmetex.
    I want to thank these witnesses.
    I want to thank my colleagues, Representative Burton and 
Representative Watson, for their participation in this hearing 
which has taken over 3 hours, and members of our staff, who 
have well prepared us for this hearing.
    This subcommittee will continue its look at the 
implications of mercury as an environmental contaminant, the 
health effects of it, whatever the point source happens to be 
of that.
    I want to, again, thank everyone for their attendance, and 
this committee stands adjourned. Thank you.
    [Whereupon, at 5:44 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
